                                  ~~e~~~~~~5~§~~ji~~
Inspector General. Release or
S106.1. Contents may be disclosed only           ~r::~:'!::Q
"The
hereto. &mtents cannot be released outlrde       n
the Department of Defense, Office of Inspector
Additional Copies
To obtnin additi onnl copi es orth is "cport, visit the Wcb sitc orthc Dcpartmcnt or Dcrensc
Inspectol' Ge neral hllp:iiwww.dodig.l11iliauditireporls or col1lact the Secondary Reports
Di stri buti on Unit at (703) 604-8937 (DSN 664-8937) 0 1' rax (703) 604-8932.

Suggestions for Audits
To suggest ideas ro r or to request ruturc audit s, contact the Oflice or the Del)tIlY In spector Genera l
for Auditing at (703) 604-9 142 (DSN 664-9 142) or rax (703) 604-8932. Idcas and rcqu ests ca n
also be mai led to:

                        OD IC-AUD (ATTN: Audit Suggestion s)
                        Department or Dcrcnsc Inspcctor Gcncral
                        400 Army Navy Drive (Room 80 I)
                        Arl ington, VA 22202-4704


                                    To report '".ud, wish?, mismanagement, and abuse of authority.


                   !ine             5efld ".iU", complainJ510: o.r",,,, flolline, nl< i'en1<1gon. W'~l~IOI\ DC lO301·1900
                                    Phooc: 800.424.9098 ..""Ii: hodlnetModk)JrOi 1YIYIY0001gJrillhotl....
                                      INSPECTOR GENERAL 

                                     DEPARTMENT OF DEFENSE 

                                      400 ARM Y NAVY DRI VE 

                                 AR LINGTON , VI RGI NIA 22202-4704 





                                                                                 January 29, 2009

MEMORANDUM FOR NAVAL INSPECTOR GENERAL
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY
              COMMMANDER, MARINE CORPS SYSTEMS COMMAND


SUBJECT: Procurement and Delivery of Joint Service Armor Protected Vehicles
         (Report No. 0-2009-046)

We are providing thi s report for your infonnation and use. We considered management comments
on the draft of this report when preparing the final report.

Comments on the draft of this report conformed to the req uirements orDoD Directi ve 765 0.3 and
left no unresolved issues. Therefore, no add iti onal comments are required .

We appreciate the courtesies extended to the stafr. Questions should be directed to me at
(703) 604-920 1 (DSN 664-920 1).




                                             Richard B. Jo lli ffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management



                                     SPECIAL WARNING

This repert eeRtaiRs eeRtraeter iRfarmatieR that may be eempBBy eeaHdeBtial er
prepriehlF)'. Seetien 1905, title 18, United States Cede, and seetioR 03, title 11, United
States Cede, pro'iide speeifie peRlllties fur the HHaHthari:led diselesure ef eempaH,'
eaHfideHtial ar proprietary iHfarlBatiaH. YaH lBuSt safeguard this repart iH aeeardaaee with
DoD Regulali •••400.7 R.

This deeHRIeftt is exempt weRi the RlH:HdatoFY diselesHre HRder the Freedem of IRferRiatieH
Aet exemptieRs 3, 4, aBd S.
Report No. D-2009-046 (P ro.ieet No. D2007-DOOOCK-023 0.000)                Janu ary 29, 2009


                Results in Brief: Procurement and Delivery of
                Joint Service Armor Protected Vehicles

                                                        of offe red prices wit hout attempting to obtain
What We Did                                             appro priate vo lu me discoun ts may havc resul ted
                                                        in potent ial lost sav ings 01' $45.6 milli on.
Our overall audit ob.i eeti ve was to determine
whether th e Mine Resisl<lnt Ambush Protected
(MRA P) vehi cle program office effectiv ely            What We Recommend
proc ured armored vehi cles in accorda nce with         We recommend that the Co mmandcr, MCSC
Federal Acqu isition Reg ulation and DoD                dircct the Assistan t Commander for Contracts to
req uirement s. Spec ifi ca ll y, we determined         instruct contracting oFfi ccrs to fo ll ow Federa l
whether the progra m omce took appropriate              Acq ui siti on Regul ati on requirements 1'01'
actions to acce lerate vehi cle deli very to use rs.    determining fair and rcaso nab le pri ces, to
We also rev iewed the Services' req uirements for       establi sh procedures that address sec ki ng
MRAP and High Mob ility Multipurpose                    vo lu me di scounts when appropriate, and open
Wheeled Vehi cles (I-IMMWV).                            di scuss ions to nego ti ate grea ter di scounts on
                                                        current contracts.
What We Found
MRAP ollieials too k effecti ve actions to              Client Comments and Our
acce lerate deli ve ry ofMR AP vehi cles and            Response
add ressed materi al shortfalls. In addition, Army      The comments from the Ass istant Secreta ry of
and Mar ine Corps offi cials deve loped MRAP            the Navy (Research, Deve lopment, and
req uiremcnts and Up-Armored HM MWV                     Acq uisition) [ASN(RDA)]; and the
requirements ba scd on th eatcr co mmandcr              Co mmander, MCSC were responsive. The
assessment s.                                           Commander, MCSC agreed with all of the
                                                        reco mmendati ons; however, both the
Marine Co rps Systems Command (MCS C)                   ASN(RDA) and the Command er, MCS
offi cial did not properl y determine that contract     disagreed with the primary issue in Finding C
priccs wcre fair and rcasonable whcn th ey              on ra il' and reaso nable pric ing. onsequent ly,
awarded ni nc firm -fixed-pri ce indel1n ite­           we req uested a policy decision from th e Offi ce
de li vcry, ind cfi nitc-quantity contracts in          or the Under Secreta ry of Defensc 1'01'
January 2007 1'0 1' MRAP vchiclcs. In additi on,        Acq uisition, Technology, and Log istics. The
MCSC offi cials did not choose an appropri atc          Director, Defcnse Procuremcnt agreed, stating
con tract typc for th e M RAI' procurement as           that the contractin g officer cannot assume pri ces
execut ed. Subsequcn t to the awa rd of the ninc        arc 1:1 ir and reasonabl e sim ply beea usc multiple
contracts, MCSC contracting offi cials did not          Il rm-nxcd-price offers wcre reccivcd. I)lcase
attcml t to obtai n cumu lat ive quant ity pri ci ng    sce th e rccommendat ions ta blc on the bac k of
di scounts lI'om onc of thc contractors.                this page. Please see the Finding C section of
                                                        th e report for a detail ed discussion of the cli ent
Co nsequ cnt ly, 000 has no assurance that prices       commcnts and our response.
pa id were fair and reasonab le and li kc ly paid
more than it should have for MRA P ve hicles.
Addi tionally, co ntracti ng offic ials' acce l tance
Report No . D-2009-04 6 (Project No. D2007-DOOOCK-023 0.000)                   Janua ry 29. 2009

Recommendations Table

Client                    Recommendations      No Additional
                          Rcquil'ing COlllmcnt Comments
                                               Requil'ed
Commander 0 r the                              1., 2., 3., 4., 5., 6. , 7. ,
Ma ri ne Co rps Systcms                        8., and 9.
Co mm and




                                                II
Table of Contents

Resu lts in Brief

In troti" ctio n

        Obj ectives 

        Backgro und                                                                     I

        Rev icw o f Intel'l1n l Controls                                                5


F ind ing A. Actions Takcn to Accelerate Mine Resistant Ambush Protected 

Vehicle Delivcl'Y                                                                       7


F ind ing B. Army and Marine Corps Mine Resistant Amb ush Protected Veh icle 

llnd Up-Armored High Mobi lity M ultipnrpose Whee lcd Vehicle Rcq uirements    13 


F inding C. Price Rcasonab leness Determination 	                                      19 


        Recommendation s, C lient          omments, anci Our Respo nse 	               45 


Appcndiccs

        A. 	 Scope and Met hodo logy                                                   49 

                 Pri or Cove rage                                                      50 

        B. 	Discrepa nc ies Betwee n Proposa ls ll nd the IGCE                         53 

             List of Acronyms and Abbrev iati ons                                      57 

        D. Memorandu l11 Fr m the Ofl'ice of Inspector General , Do D Requesting 

        Comment s Fro m the Ortice of the Under Secretary o r Defc nse for 

        Acqu isiti on, Technology. and Logistics                                       59 


C lient C Olllments

        Depnrtme nt of the Navy                                                        61 

        M~lI' i ne Corps                                                               63 

        O ffi ce of the Under Secretary of Defen se fo r Acquisition, Techno logy. 

        nlld Logisti cs                                                                69 

Introduction
Objectives

Our overa ll audit objec ti ve was to determine wheth er the Mine Res istant Ambush
1',' tected (M IV\P) vehi clc program orA ce clTccti vc ly proc ured armored vehicles in
acco rdance with f'cdera l Acqu is ition Regul at ion and DoD req uiremel1ls. Spec ifi ca lly. we
rev iewed program ndmini strmi nto determ inc whether the program offi ce too k
appropriOie acti ons to acce lera te ve hi cle dclivery to uscrs. An additional aud it obj ecti ve
was to revi ew the Services' rcquirements for MI AI' an d Hi gh Mobi lity Mu lti purpose
Whee led Vehi cles (I-I MM WV) .

Background

Since the begi nnin g orthc Globa l War on Terror, DoD has depended upon the
Up-Armored I-I MMWV (UA I-I ) and other armOl'ed transport ve hi cles to ensure the sa fety
of mil itary perso nn el. As enemy tactics reached lll' prccedented levels of letha Iity,
spee ifi ca lly with the introducti on 01' im prov ised exp los ive dev ices (IED), DoD ol'ficials
recognized the need for an armored ve hi clc s lut i n beyond the ca pabi li ties of the UA I-I
th at wo uld in crease th e survi va bility of military pc rsonnel in theater. The UA I-I could no
longer be modili ed to mee t the thrent of cenain enemy attacks without c mpromising
esse ntial vehicle capabilities.

~.
   - -
                                                                                              nt
that the MRAP vehicle docs not replace the need For other combat and tacti cal vehic les
and th at there is no single so luti on to the threat orl EDs. Whil e these programs prov ide
balanced capabili ties now and into the Future, MRAP vehicles arc recogni zed as a
separate in it iati ve that add resses a specifi c threal. Takin g these and other facts into
ncco unt, there remai ns a crit ica lnecd for both UA H ancl MRAP vehicles.

As of.lul y 7, 2008, Co ngrcss has fund ed $22.4 bi lli on 1'0 1' the MR AP vehiclc program to
include vehi clcs, testing, Governmcnt-furn ished equ ipment, spiral deve lopmclll, log isti cs
support, and tra nsportati on costs.


MRAP Veh icle Protection

MRAP vehiclcs prov ide a so lut ion 1'01' the spec ifi c th eatc,' operat ional need r I' a
pl'ote ted ve hi cle capa bi lity that increases survivabil ity of forccs opcrat ing in haza rdous
arcas aga inst threa ts including mincs, IEDs, and small arms fire. The Commandant of the


                                FEiR ElFFI8Mb t;8E 8PU::H
                                                                                                     b(2)
Marine Corps stated that Mu lt i-N at ional Forces- West (MNF-W)' estimated that the use
of MRAP vehicles could reduce casualti es ill vehi cles due to lED attack by as much as
80 percent. All tactica l whee led vehi cles mu st ba lance protecti on, performance, and
payload; however, protecti on is the prominent co mponent orthe MRAP vehi cle. Such a
tradeoiTprovides an operat ional specifi c capability that will augment, but not replace,
HMMWV s.

MRAP Vehicle Design and Mission

MRAP ve hicles have v-shaped hulls and arc designed t protect the crelV rrom111ine
bla sts and both fragmentary and direct fire weapons. The MRA P famil y or ve hicles
consists of three catego ri es coverin g a range of 1l1issions:

MRAP Category (CAT) I is in tended to support combat operations in urban cnv iro nmcnt5
and oth er rcstricted or confined 'paces with the capab ility of transporting six personncl.
Miss ions in this ca tegory include 1l10unt cd patrols, rcconnai s ance, communica ti ons, and
c01l1mand and control.

MRAP CAT II is intended to suppori111 ulti -111iss ion opcrati ons with the capability of
transporting 10 personnel. Miss ions in thi s catcgo ry arc convoy lead, troop transport,
ambu latory, explosivc ordnance di sposa l, und comba t cngineering.

MRA P CAT III is in tended to support mine and lED clearan ce operations with thc
capability of tran sporting 12 personnel.




           Figure I: Intcl'national Militat·y and Govcrnlllent MRAI' CAT I VlI l'iant


I   MNF~ W performs missiol1 s ill Iraq under th e Operation Iraqi Freedom initiative.

                                      Fell 8FFlEJIi'zis WS," 8NJ.Y
                                                    2
Procurement History

The MNF-W issued two Joint Uni vcrsal Opcrational Nccds Statcmcnts (JUONS) on 

May 2 1, 2006 , and .Iuly 10,2006, res pectively, documenti ng the need for 185 Med iu m 

Mine Protectcd Vehi clcs And 1,000 MRAP vchic les.2 Unitcd Statcs Cc ntl'al Command 

approved the total quantity of 1, 185 MRAP veh icles on October 26,2006. 


 In order to support rap id fic ld ing ofMRAP vchic lcs, Marinc orps Systcms ommAnd 

 (MCSC) awarded a so lc-source, indefi nitc-d clivery, indefini tc-q uantity (IDIQ) co ntract to 

 Force Protectio n Industrics, Inc. (1"1' 11), n Novcmber 9. 2006, r I' up to 200 .Ioint 

 Explos ivc Ord nancc Di spo al Rapid Rcsponsc Vchic les (JERRV) (MRA P CA T II 

 vehi clcs) and 91 BufTa lo Mine Protected Clea ra nce Vchicles (M RA I' CAT III ve hi cles). 

 The justifi cation for th e so le-source aW!l rd stated th at FP II wa th e only compa ny with 

 the demonstrated capab ility to prod uce MRAP vehi cles in a time framc to suppO rl thc 

 Globa l War on Terror and that award of the contl'act to Another source would rcsult in 

 unacccptab ic delays du c to the ncccss ity of performing mobil ity and survi vab ility testing. 

 As of March 31, 2008, MCSC placed 7 dcl ivcry orders agai nst thc PP II contract 1'01' 

_      ERRVS and. Buffal o Millc Protectcd ICl1rance Vchi cles Ilt a co t of
 $ 198 mi II ion. No dclivery ordcrs for the .I ERRVs wc rc placcd on thi s contract aner
 Decc mbcr 2006.

Co ncurrcnt with the so le-source award to PP II , MCSC issued a Requcst for Proposals in
November 2006 A I' CAT I and CA T II vehiclcs needed to meet the JUONS requi remcnt
far 1, 185 MRAP vchi cles. The Rcqucst fa r Pl'Oposa ls was issucd bascd on rcsponses
fl'Om contractors to an August 2006 Request 1'01' In t'ormation to gaugc industry capab ili ty
for prod ucing MRAP ve hi cles. MRAP contmct ing offi cia l tated that they initi ally
intcndcd to purchasc 1, 185 vchiclcs. Howcvcr. MRAP rcqui remcnts incrcascd
signifi ca ntl y after thc so licitllt ion was issucd.

ivI CSC receivcd 10 proposa ls in responsc to the so li citatio n, and on.lanuary 25, 2007, 

MCSC awarded 9 IDIQ contracts) ror up to 1,5 00 CAT I and 2,600 CA T II MRAP 

vchi clcs pCI' yCal' for I basc ycar and 4 opt ion yea rs n'olll each of the l'o ll owing 

contractors:

     •     Protected Vchi cles, Inc. (PV I),
     •     Oshkosh Truck Corporation (OTC),
     •      encral Dynllm ics La nd Systeills - Canada (GDLS-C),



:!J\ n in-dep th review focusing pri ll1n1'i ly 011 Ihe Marine orps urgent need requirements p!'ocess for MRAP 

pri ol' to the initia l Joint Uni vcl'Sll l PCI'<1!iOJl fl l Needs SlnlCI11 Cn l was addressed ill fl separat e DoD IG Illld i! 

report , 0 -2009-030, "M arin e Corps Implemelltlltion of th e Urgent Un ive rsal Needs Process for Mine 

 Rcs istnlll Ambush Protected Ve hicles," December 8, 2008 . 

J Olle proposa l WilS exclud ed from co nsid erat ion ba sed 011 ft cO lllbinnlioll ofwcnkn csscs :l1Icl defi ciencies 

regarding techllicn l npproach rmel deli very sched ule ror MRAP ve hicle s. 




                                                                3                                                                   b(4)
     •    BAE Systems Land and Armaments, LP (BAE),
     •    Armor Holdings , In c. (A 1-1 1),4
     •    FP II ,
     •    Intel'l1at ional Mi litary and ovcl'l1m cnt LLC (IMG), s
     •    Tcx tron Marine and La nd Systems, and
     •    Ge neral I urpose Vehiclcs (G PV).

Each co ntractor was requ ired to produce four I roducti on-vcrificati on test vehi cles
(t wo CAT I and two CAT II vehicl es) fo r surv ivabil ity and mobi lity testing; the tota l cost
of the 36 test vehicles, includ ing cos t for serv ices and supp lies required for tcst ing, was
$88 mill ion.

The Assistant ce rctary of the Navy (Resea rch, Developm ent, and Acq uis iti on) approved
th e issuance of low-rate init ial pr duction (LRIP) ordcrs aga in st the contracts before
obtain ing Govcl'l1m enttesting results to accelerate production of the lower risk material
so lu tions. As ol·.Iunc 30, 2008 , MCSC had pl aced 27 LRIP delivcry orders agai nst 7 of
the 96 co ntracts for a t tal of 13,905 vehi cles, at a cost 01'$9. 1 billi on. Funding obliga ted
for vehicle contmct linc item numbers (CLIN) as of ./ une 30, 2008, t wled $7 billion and
thc fund ing ob ligated for non-vehicle CLi Ns totaled $2 .1 bill ion. Tabl e I below shows
the breakdown of vehi cles per contractor.

                                         Table l. MRAP COlltl'llets
                                                   Vehi cles
                           Contractor              Ordered           Ob ligated Amount"
                             PV I                       10                      $23 ,348,052
                             OTC                       100
                            GOLS-C                    620
                             BA E                   2,2 18



                                                   -
                             AI-II                  2,862                   $ 1,632,2 13,639
                               FI' ll
                              IM G                 5,2 14
                              Tota l               13,905                   $9,125,357,435
                       l\'Th is colUll11l represents the 10 la l cost of th e dclivery orcl cl's
                       nwnrdcd to each CO lllrHclo r including vehicle cos ts, services, and
                       supplies ns or JlIlle 30, 2008.



·1AH I is the pnrcnt company of Stcwnrl lllld Stevenson THcti cnl Vehicle Systems, which \Va SOll e orlll e
nine con trnctol's contracted lor MRA I' ve hicles. A I-II was purchased by BAC in 2007.
S In March 2008, IM G's Iln!1lC changed to Navistflr Dercll se, LL ; howevcl', ro l' Ihc pUI'j)OSCS or thi s repo rt
we wi ll re fer to them as IMG,
G GPV fa iled to deliver test vehiclcs on ti me; Textron Mnrinc and Lflnd System s ve hicl es did nO! pnss
(vIR Al'testin g, Text ron's contract Wll S terminated ral' cO ll vc llicncc, find th e vehicles were sold back to
Textron m fl l'cduccci cost



                                                             4                                                         b(4)
MRAP Program Management

In November 2006, the MRAP .J oint Program Office (.11'0) was establi shed to ma nage the
acquisiti on of MRAP vehi cles to meet Army, Air Force, Na vy, Marin e Co rps, and
Special Operations Comma nd (SOCOM) need s. MCSC manages th e .1 1'0 and MRAP
procurements fo r all Services. On May 2, 2007, the Sccretary of Defense des ignated the
MRAP vehicle program the hi ghest priority DoD acqui sition program stati ng th at all
options to acce lerate the production and lic lding ofMRAP vehi cles to theater should be
identifi ed, assessed, and appli ed whcre fcasibl c. On May 30, 200 7, the MRAP 'T'ask
Force was formed at th e direction oflhe Secretary of Defen se to integrate plan ni ng,
ana ly. is, li nd acti ons to accelerate the acqui siti on of as l11<1 ny MRAP vehicles as possibl e.
The Chairman of th e Task Force is the Und er Sec retary of Defense for Acqu isit ion,
Techn ology, and Logistics.


MRAP Vehicle Requirements

MRAP vehi cle requircmcnts havc cvolvcd from the October 26, 2006 , comb ined .JUONS
for 1, 185 MRAP vehicles. On May 10,2007, the Joi nt Requirement s Oversight Council
(.JR O ) revi ewed and approved a .J oint Service requ irel11ent for 7,774 MRAP vehi cles.
On Se ptember 5, 200 7, th e JROC revicwed and approvcd thc in terim Army requirement
for 10,000 MRAP vehicles, fo r a total or 15,374 MRAP vehicles (3,700 for Ma rine
Corps; 10,000 for j\ rmy; 544 for Navy; 697 1'0 1' j\ ir Force; 333 for SOCOM ; and 100 1'0 1'
balli sti c testing) . On March 3 1, 2008 , the JROC rev iewed and approvcd mul tiple revised
serv icc requ ircl11ents fo r MRAP vehi cle , for a total of 15,77 1 MRA P vehicles (2,225 for
Ma rine Corps, 12.000 for Army, 544 fo r Navy, 55 8 for j\ir Force, 344 for SOCOM , and
 100 lor ba lli stic testing). For a cOl11plete di scuss ion ortlle evolution of Army and Ma rinc
Co rps MRA P requiremcnts, which accounl ror the la rgest nUl11ber of MRAPs, sec
Find ing B of thi s report.


Review of Internal Controls

We determined that a material internal co ntrol wea kness in the award or MRAP contracts
ex isted as deli ned by DoD In struction 50 I0.40 , "Ma nagers' In tern al Co ntrol (M IC)
Progral11 Procedu res," January 4, 2006. Specili ca lly, MCSC orli cia ls awarded nine
li rm -fi xed-pricc IDIQ co ntracts in .Ia nuary 2007 for MRAP vehi cles but did not properly
determi ne th at contract prices were fair and reasonable. In add ition, MCSC offi cials did
nOl choose an appropriate contract type for the M RAP procurement. Furtherm ore,
MCSC contracting offi cials did not atlempt t obtain cUl11ulali ve quantity pr icing
discounts from one of the contractors. Wc di scuss these issues in detail in Finding
Im plementi ng Recomm endat ions 1. ,2.,3 ., 4.,5.,6.,7., 8., and 9. should correct these
contl'O l weaknesses. We wil l provide a co py of thi s report to the senior ofli cial
responsibl e for internal controls in the Depa rt ment of th e Navy.

                                FSR SfFI @I/tb USB SPlM'
                                                  5
6

Finding A. Actions Taken to Accelerate Mine
Resistant Ambush Protected Vehicl e Delivery
MRAI' offi cials too k effectivc acti ons to accclerate cieli very ofM RAP vehi cles. In
May 2007, thc Sccreta ry of Dcfensc ciesignatccithc MRA I' program as the Department of
Defense top acquisition pri ority; consequently, MRAI' offi cials impl emented actions to
Hccclerate vehicle delivery to users and aggressive ly allempted to deli ver 3,603 MRAP
vehi cles by Decc mbcr 3 1,2 007. Spcc ifi c Hcti ons takcn by MRAI' and other DoD
o ffi cial to acceleratc deli very in cluded the follow ing:

          • 	 Thc .11'0 devcloped an acqui siti on stl'atcgy to max imize producti on efforts by
              awarding IDIQ co ntracts to mUltiple vendors primaril y based on the
              co nt ractors' technicH I approac h; thi s erfort to max imi zc vchicle producti on
              accclcnllCd the deli vcry of MRAP vchi cles signifi ca ntly.
          • 	 The .11'0 accelerated early production o fMRA l' vehicles by issuing mul ti ple?
              LR II' orders agai nst th e MRAP contracts so that the contractors could develop
              and susta in a prod uction wo rk force, whil e the Gove1'llment concurrently
              perfo rm ed operatio nal tests.
          • 	 MRAP offi cials imp lemented several strateg ies to address matcri al shortfa ll s,
              sti ch as priority allocat ion of industrial resources, incenti ves to in crease
              materi al production, and close moni toring of lead ti mes associated with
              proc ul'ing ma.i or vchi cle components.
          • 	 The JPO prov ided onc MRAI' contractor with a monetary inccntive to
              upgrade faciliti es for thc purpose of increasing vehicle production.


Thc comb ination or actions executcd to add ress the urgent necd for acce lerati ng the
deli very fMRA P vchi cles to thcater wcre inllOVal ivc and crfective. As a rcsult, this
report does not include recommendations related to the accelerated dclivery of MRA I'
vehi clcs.


Accel erated Delivery Results

(FElI!J9) Thc .1 1'0 faced ciHl ll engcs early in the prog ram resul ti ng in latc dcliveries by all
contractors. The JPO implemented aggress ive cont ractu al deli very schedulcs to meet the
theater demanci for MRAI' vehicles as directed by the Secreta ry or Defense. However,
the .11'0 was unable to meet its proci ucti on goa l or producin g up to 750 vehi cles per


7 The JPO has cont inued 10 nwat'd delivery ord ers 0 11 fi ll LR IP basis bCCll ll SC full testi ng IHis nol been
compl eted. Th e JPO acknow ledged thot this slrn tcgy inhcl'cllI ly illVOlvcs risks flssociated with sli stailllll Clll
and moinlcll ClllcC of MR AP vehicles.

                                       FQR     QFFI~l:\ls       IoISIS   Q~llsY
                                                           7
m nth by thc end of Se ptember 2007; thc Govcrn mcnt accepted 40 I (53 perccnt) of
750 vehiclcs in Scpte mber 2007. Reasons for de livery delays inc luded overly aggress ive
sched ul es, enginee ring changes to vehic les. and materia l shortages. Furthermore,
contractors who agreed to deli ver vehicles on a weekly sched ul e rather than a monthly
sched ul e to prevcnt vehi cle back l g lit Space and Nava l Warfare Systems ommand ,
Charl eston, co uld not l11eet the reviscd co ntract ual obli gations. As a result, contractor
del ivercd vehi cles late, the MRAP co nt racting Of'fiCC I' rcv ised co ntractua l deli very
schedu les For all co nt ractors, and the co nt ractors provided conside ration to the
Government when accountab le for delays.

(FeUe) December 2007 MRA I' vchicle prod ucti on data illustrates the sueecss 01' .1 PO
efforts to address the urgent need for acce lerated delivery of vehi cle to the theater. FPI I
produ ct i o~ the Joint Exp los ive Ordnance Disposal Rapid Response Vehic le8 in 2006
averaged.       vehieles per 1110nth. In contrast, FP ll's MRAP vehicle prod ucti on fbI' the
month of December 2007 IVlIs.          vehi cles. Also, monthl y vehicle prod uctio n across
MRAP contracto rs increased s=          ca nt ly from 173 vehicles in Jul y 2007 to
1, 189 vehicles in December 2007. As of' December 3 1, 2007, the Governl11cnt accepted
3,479 MRAP vehic les (97 pe rcent) of the 3603 ve hicles th at contractors were
contractually ob ligated to deliver according to the ir origi nal del ivery sched ul es. In
additi on, the .11'0 was largely able to meet the month ly prod ucti on rate goa l of
1,200 vehicles per 1110nth by December 2007. The Government acccpted 1, 189
(99 percent) of 1,200 vehic les in December 2007. Tab lc 2 illustrates the quant ity of'
vch iclcs accepted mon th ly 1'1' m Febru ary through Decembe r 2007.

                                     Table 2. Q uall tity of Vehicles 

                                          Accepted MOllth ly 

                                              During 2007 

                                        Mon th             Vch icles Accepted
                                       FcbnUlI)'                    10
                                        Mnrch                       19 

                                        April                       48 

                                        May                         64 

                                         June                       72 

                                         Ju ly                    173 

                                       August                     204 

                                      Scptcmbcl'                  40 1 

                                       OClobc!'                   456 

                                      No\'cmbcr                   84 3 

                                      Deccmbcr                  t,I89 




II   The FPII predecessor vehicle lo the MRAP vehic le wasth e Joint Expl sivc Ordn ance Dispos(1I Rapid
Respollse Vehicle.

                                      FQ"    QFFI~Hh        \JS,"   ~HfM'
                                                       8                                                   b(4)
Indefinite-Delivery, Indefinite-Quantity Contracts to
Multiple Vendors

MCS awa rdcd IDI Q contracts to nine contractors primarily based on source selection
offi cial s' assessment of the tcchni ca l capabiliti es documented in th e contractors'
Iroposa ls 9 The co ntracts requircd each contractor to produce two CAT I and two CAT
II vehi cles 1'0 1' surviva bi lity and mobility testing, Prior to tcsting. th e .IP asses, cd the
producti on ca pability of th e nin c contractors and began procuring ve hic les through LRIP
ordcrs to max imi ze vehicle produ cti on and acccicratc thc de li vcry ofM RAP vehicles,
The .I PO issued LR II' orders to eve n lO or the nine co ntracto rs,

Low-Rate Initial Production
The .1 1'0 accelcrated ca rly producti on of MRAI' vehi cles by iss uin g multiple LRIP orders
again st the MRAI' contracts so that cont ractors could develo p and sustai n a I,roduct ion
workForcc, whi le the Govcl'l1mcn t concurrently performcd opcrati onalt csts, I


Criteria
  ection 2400, titl c 10, Unitcd States Codc (10 U,S, ,2400) states that LRII' is the
minimum quantity 01' a ncw systcm necessary ( I) to prov ide product ion For opcrati onal
tcst and eva luation, "(2) to establi sh an in itial I I' dllction base 1'01' the systcm , and (3) to
pcrmit an ordcrl y incrca e in the prod uction rate , , , suFficicntto Icad to full-rate
producti on upon the success ful coml lction of opcrat iona ltcsting," DoD Instruction
5000,2, part 3,8 ,3 " LR IP," states that LRIP qlla ntities cxcecding 10 percent of the total
production amount must be reported to Co ngress and approvcd by thc mi le tone decision
author ity, who assesses the cost and bcncfit of a break in producti on versus co ntinucd
proc uremcnt. LRII' orders allow the prog ram office to bypass statutory req uirements fo r
Fu ll -ratc production that rcq uirc opcrati onaltests be compl eted prior to Full -rate award ,




                                  r I                               i             se ttl ement after OPV railed 10
 deliver lest vehi      0 11 tim e. The con tracting officeI' lerminated th e cont rac t with Tex tron Marine fm<i
 Land Systems because the fO lll' vehicl es did 110t pass testin g.
 11 The JPO dCICl'Illillcd fl'ol11 the Industrial :Ip<lbili
~l g pt'Oclllcti oli efr0l1s o f oth er vehic les, I I
_          Subsequent to achievi ng fav rnb lc testin g I'

                                       FaR     aFFI@IA~         loJBS !HlM'
                                                           9                                                         b(4)
MRAP LRIP Orders

The .11'0 procured MRAI' vchicles undcr LR II' at full -rate quantiti es in ordcr to
maximi ze produ ction efforts and acce lerate deli very of vehicles to the warfi ghter.
Although the law does not prohi bit LR IP purchases for more than 10 percent of full
Pl"Odll cti on quantities, it docs rcquire the milcstone dcc i ion aut h rity t .i ustify and
approve the quantity. Conseq uently, the mi lesto ne dec ision authority 1'01' the MR AI'
pI' gram rev iewed and approved each LRI P order before awa rd . MRAP offi cials
ackn ow ledged the ri sks associatcd with issuing LRII' riel' I' I' multiple variants 0 1'
MRA I' vehicles from seven di fferent contractors before operati onal testing was comp lcte.

Approx imately I week al'ter thc MRAP co nt racts were awa rded in .I anuary 200 7, the .11'0
initiated a rapid In du strial Capabi lity Assessment to assess and valid ate co ntractor
producti on capability at cach co ntract I' site. Thc JPO assessed survivability from
availabl c tcst data, dcs ign maturity, and pl"Odu ction capability and ri sk. The .11'0
 Indu strial Capability Assessment identified preliminary co ncern s with IM G and AI-II tha t
prevented th e contractors from parti cil ating in LRIP I and LR IP 2. onsequcntly, th e
.11' 0 reeo mmcnded LRII' orders to the Assistant Secretary, who authorized LRIP I on
 February 9, 2007, and LR II' 2 on February 2 1, 2007, before M RA P vehic le testing began
at Aberdccn Prov ing Grounds. The Ass istant Secretary authori zed LRII' I ~ I' a total of
2 15 vehicles consisting of foul' di fferent var iants:

   •    15 BAE AT I vehicles,
   •    75 BAE CAT II vehi cles,
   ·• I Ff' 1I   CA T I vehicles, and
           "I' ll AT II ve hi cles.

For LRJP 2, the .11'0 briefin g to the Ass istant Secretary addressed the low ri sk of issuin g
deli vcry ord ers t    DL - and 0 '1' because both contractor Iwd proven production
processes and pl'Oduction lines in place . .11'0 offi cials stated that they accepted the most
risk with th e deli very ordcl' to I'V I bccause PVI did not have a provcn produ ct ion lin e.
According to the MRAI' program managc r, the .11'0 acce pted the I'isk beca use PVI
employed a ncw technology that could have provcn to bc a signi li cant development in
ve hi cle armor. The Ass istant Secretary authorized LRI I' 2 for a total of 180 vehi cles
co n isting of four diffcrcnt vari ant :

   •    10 GDI_S-C AT I vehi cles,
   •    10 GDLS-C CAT " vehi cles,
   •    100 OTC CAT I vehi cles, and
   •    60 PVI CAT II vchi cles.




                                PEIN ElFFI@IJltIs !!lSI!] QNbV
                                            10                                                    b(4)
The .J PO proc ured 395 MRAP vehicles (8 different variants) from 5 of the 7 contractors
under the first 2 LRIP orders. The JPO subsequently excluded two of the cont ractors
(OTC and PV I) 12 from receiv ing fu ture vehicle orders and eliminated th ree types of
vehi cles (OTC CA T Is, PVI CAT lis, and GDLS- CAT Is) fro m futu re considerati on.
Thc .J PO acce lerated producti on by quick ly identifyi ng severa l co ntractors th at could
beg in producing MRAP vchicles and contribute to the goa l ofaccclerating vehi cle
delivery to the thea ter.

The MRAP program manager stated that, as the MRAP program evo lved, program
oflie ials beca me more capab le at eva luating vehicles with regard to survivab ility, human
fac tors, and prod uction. The JPO cont inued to issue LR IP orders for MRA P vehi cles
undcr the authorization of the Milestone Dec ision Authority. From April 2007 through
March 2008, the JPO issued LR IP 3 through LR IP II .

Strategies to Prevent Material Shortfalls

DoD of'ficials imp lemc nted several strateg ies to address materi al shortfa ll s, includ ing
priori ty alloca tio n of industria l resources and incenti ves to increase mate ri al prod ucti on.

The ava il ab ility of vehic le pnt'ts and materials was a concern for MRAP of'fic ials. In
Apri l 2007, the Defense Co ntract Ma nngement Age ncy (D MA) released an MRAP
Ind ustrial Ca pab ility Assessmcnt, whi ch identified that the ava ilability of major MRAP
vehiclc compo nents common to all contractors, such as stee l, ax les, ballisti c glass, and
tircs co uld be a potent ia l choke po int lor MRA P vehicle production.

(1"0l:J0) The DoD exercised several strateg ies to prcvent bottl enecks from occurring.
On June 1,2007, the Sce retary of Defense authorized the Department of the Navy to use
the DX industri al priority rat ing fo r the MRAP program. A DX -rated program is of the
hi ghest National Defen se urgency and req uires spec ial attention for th e progra m to reach
and maintain estab lished production rates or quantities. The DX rati ng gave the MRAP
program pri ority in obtaining eq ui pment and raw materials fo r production. In add iti on,
the Defense Logistics Agency utili zed its sole-source tire privati za tion contract with
Mic heli n North America for MRA P veh icle tires and tire-related Sll pport. The Defense
Log isti cs Agency also inee nti vized Mi chelin by prov iding $4 mi lli on to purchasc
additi onal tire molds and various eq uipment so the co mpnny could mcet current and
projected demands. rUl'lhel'l 110re, DoD obligated $200 milli on to increase the capac ity
and ava ilabi lity 01'1'900 steel and hi gh, hard stee l for MRAP vehicles. The proc urement



' ~Th c Government considered fl ulOIliOli vc alld humllll fncta rs issues orOTe veh icles so signincanllhal
chllnges needed to be made to the ve hicles tha t would calise unacceptable delays 10 fUlUfC production
ord ers. As n result, th e Governmciit decided not 10 order ~lI1y additional vehicles slibsequent to
100 VClliclcs ordered under delivery ordcl's 000 I fi nd 0002. PV I was unable 10 Il1eel contmeilln) obligations
nnd all December 4, 2007, the contracting officer te rminated the contract for defau lt. Of the 60 vehicles
purcha sed, onl y 10 ve hicles had been del ivered to the Government prior 10 contract terminati on.

                                     1'8ft 8f'1'I@1A15       I'!!l~   8'115)1
                                                   II
I Ian ror the $200 milli on included a ramp-up of 1'900 stee l and hi gh, hard steel indu strial
base through procurement and faci litizatio n of ex isting and potenti al sources of supply.


Fac ility Expansion Incentive

(l' eeJe) The .11'0 incen ti vized one contractor I ) to increase production or vehi cles,
thereby acce lerat ing th e delivery of vehic les to the so ldiers in theater. The .11'0 prov ided
IMG with_           l11 ill ion to fund the ex pansion ort he IMG fa ci lity in West Poi nt,
Miss iss ipp i, to increase prodllction capaci ty rrom 240 to 600 vchic les pCI' month. On
.lull' 20, 2007, th e .I PO provided IMG a facil ity ex pansion incenti ve for



                                                    not meet        I   I'                 I   1'01'
                           rCCllIC" C1 its plann ed production goal s ror IMG from 600 to
500 vehi cles pCI' month . Howeve r, 92 perce nt (692 Ollt or 755) orth e vehi clcs were
delivered by Februa ry 2008. As orMarch 2008 , the Governm ent had rece ived 0 1' was in
the process of negotiatin g con. ideration 1'01' the late deli very or the remain ing vehicles.




1) li\llG was th e only co nt ractor to request a fcc fbI' racility expansion ror the rviR AI) I>rogralll in resporl sc to

the Government' s request to flccc lcnllc nlld incren se MRA P vehicle production.

                                         F8Jl 8FFI@I:\J, I!1Eif!J 8NM'
                                                   12                                                                        b(4)
Finding B. Army and Marine Corps Mine
Resistant Ambush Protected Vehicle and
Up-Armored High Mobility Multipurpose
Wheeled Vehicle Requirements
Army and Marine Corps offi cial s developed MRAP requirements based on thenter
commander as ess ment and cont ractor production capabil ity. Army and Marine Corps
offi cials developed UA II requirements based on theater commander assessments and the
cont inued use or UA I-Is in combat and noncombat environments.


Army MRAP and UAH Requirements

Army offi cials developedM RA P vehicle rcquirements based on theater commander
assessments of the num ber of MRA Ps needed to fi II UA I-I combat miss ions. Join t Stafr
offi cials lIpproved the Army requirement ror MR AP vehicles based on contractor
producti on capacity and the contin ual assessment or MRA P ve hi cle peri'ormancc by
theater end-users, in ad di tion to comma nd assessments.

Army offic ials developed UA H req uirements based on thcatcr commander assessments or
miss ion execution and the fu lfi ll ment of Army-wide requ irements for combat und
noncombat env ironments.


MRAP Vehicle Requirement Quantity Development

Army Deputy hier or Starr G-3/517" offi cials stated they approved an init ia l
requi rement 1'01' 2,500 MRAP vehicles in November 2006 in anti cipat ion or an
Operational Needs Statement rrom theater co mma nder . The Army Deputy hier or
Starr G-3/517 offi cials stated the Army's initial request ror 2,5 00 MRAP vehic les was
based on contractor prod uction estimatcs and the nu mber or MRA P vehicles needed ror
UAI-I-spccific miss ions. On Novcmbcr 13,2006, Army Centra l Command IS issued an
Operat ional Needs Statement ror 17, 770 M RAP vehicles, the total quanti ty or vehicles
nceded by theater comma ndcrs to fill all UAH mi ss ion requ ircments. The UA H combat
mi ss ions included combat patrols, convoy secur ity, reconnaissance, and ambulance
miss ions. Thc Opcrational Necds Statement documcnted an opera ti onal necd 1'0 1' vehicles




,., The ArIll Y DepulYChicf of Slnlf O-3/S17 is 11150 kuown a, Ihe ArillY Depuly Chief of Sw rf for
Operati ons nnd Plans, G~3. 

15 Army CCllI rCl l ol1l1lHmd is the Army componelll orthe United tales Central COlllmand. 


                                    F8R 8FFI@ I :\ ls t;813 8P1I5Y
                                                      13
that could wit hstand underbc lly attacks to rcplace UAH s in the United Statcs cntral
Co mmand arca of rcsponsibility.

  11 May 10,2007, the .I ROC approved the Army rcqu irement for 2,5 00 MRAP vehi cles.
The Army simu ltaneously presented to thc .lRoe its intcnt to incrcase the MRAP
procuremcnt obj ective to 17,770 vchicles, given th e continuing cvo luti on of enemy
thrcats, operational conccpts, and Army strategics. Accord ing to orlicials from the Orticc
of thc .J oint e hi c ~ of Staff assoc iat cd wi th thc .tROe, th e Arm y requ iremen t 1'0 1'
 17,770 vehic les wa s not approved by the .I ROC because th council did not want to
comm it the Army to a large MRAP vchi cle procurement objcct ivc prcmaturely. Instead,
the JRO advocatcd constant cva luations or the theatcr requirement for MRAP vehi cles
with additiona l MR AP vehiclc purchases to be made as nccessa ry. On September 5,
2007, the ]ROC approved an increasc to the Army MRAP rcquirement from 2,500 to
 10,000 MRAP vehicles. According to Army Deputy hicfofStaff G-3/517 orlicials,
JR Oe approva l 01.' 10,000 MRAP vchi cles was bascd on thc monthl y producti on ca pacit y
of the MRAP vehi cle contractors and thc quantity ol'vch icles thc contractors would be
ab lc to manu facturc through FY 2008. The Septembcr 5, 2007, .J ROe mcmorandum
stated that thc fin al procurcment objective will be shaped by a continual assessment of
cha ngi ng thrcat conditio ns, fcedback fro m thcatcr co mmanders, and changcs in strategic
landscape and assigned mi ss io ns. Thc .tROe memorandum also statcd that the .t Roe
endorsed procuring MRAP vc hi clcs at the max imumratc of production un til all hi gh
priori ty theatcr rcq uircments were sati sfi ed.

On February 2 1, 2008, Army Dcput y Chi ef of StalT G-3/517 orticia ls proposed an MRAP
vehicle req ui rcment quantity range to the .tROe. Acco rd ing to thc .I ROC memorandum
issued on March 3 1, 2008, the .tROe revicwed and approved the Army req ui rement for
 10,433 to 15,884 MRAP vehicles based on the J'uturc force structure and a mix ofMRAP
and UAI-I ve hicles. The JROe memorandu m also noted thatthc Army csta bli shcd an
int crim requiremcnt for 12,000 MRAP vchi clcs to support the time ly fulfillm ent of
thea tcr requircmcnts and l11it igate aga inst prod ucti on delays.


MRAP Vehicle Performance Assessment

On February 14,2008, Army Dcputy e hi efofStarfG-3/517 rccc ived an MRAP vehiclc
performance rcport bascd on ini tial assess ments fi'o m th eatcr end -users. The report
contained an ana lysis 0 I' end-user asscssment s 0 reach MRA P veh ic Ic variant ; the vehicle
mi x of MRAPs and UA II and their rcspecti ve cfl 'ccts on opcrationalt actics, technique ,
Md procedurcs, as we ll as vehic le forma ti ons; lind thc diffc rcnt MRAP vehic le
eatego rics. The rcport rccommended further tcsting and analysis and co ntinued end-usci'
asscssment s. A February 2008 memorandum fro m the Mu lti-Na ti nal orps - lraq ' 6


16 M ulti-Nil tiollal   01']>5 - Iraq is th e laclicaluilil responsible fo r cOlllmand ilnd control of' opcrntiolls
th roughou t Imq.


                                          flSft Sf'fJ@I/:15 ~8" 8PI15Y
                                                             14
accompani ed th e MRA P vchi cle perfo rmance rcport. The Februa ry 2008 mem randu m
stated that it was too eady in th e fi elding process to prov ide a de finiti ve fin al MRA P
req uirement beca use the Army had fie lded less than 10 percent " of its MRAP vehi cle
req uirement , and the ve hi cles had onl y 90 days of combat operat iona l experi ence.


Continued UAH Procurement

Army De puty ChiefofS taIT G-3/517 offi cials stated that DoD has been unab le to ac hi eve
a ba lance between req uirement for vehi cle performance, pay load, and crcw protec tion
on th e UA I-I bcca use co ntinuous upgrades to the fIrmor on the UA H have exceeded the
ve hic le's max imum we ight. Specifica ll y, the armor neccssa ry to meet crew protec tion
req uirement s exceeds the weight th at ca n be carried on the I-IM MWV chass is, thereby
degrading vchi cle perform ance. According to Army Deputy hiefo f Staff G-3/517
ofll cials, the Army pl ans to promo te a "mi xed vehi cle neet" approach that will include
UA l-i s and MR AP vehicles, with a range of tactica l wheeled veh iclcs offeri ng
performance, pay load, and proteclion.

The Army li ghtlactica l vchi cle aUlhorized acquisition obj ecti ve is approx imately
144,000 vehicles; thi s incl udes the basic I-IMM WV, 18 the UAH , and the fu ture Joint
Lightwe ight Taclica l Vehi cle. 19 On October 2, 2007, the Army theater requircment for
UA l-i s was 2 1,625 vehic les. On January 8, 2008, the Army reduced the UA H
req uiremenl lO 2 1, 123 vehicles 20 based on Army Req uiremcnls and Rcsourcing Boa rd
instructions to adj ust theater UA H requirements month ly based on the num ber of fie lded
MRAP vehicles and new ope rati onal requircments for UA l-i s recc ived from theater
co mmanders.

Army Deputy Chi ef ofS tarr G-3/517 of'ti cials stated thaI the Army con tinues to purchase
I-IM MWVs to meel its li ght tacti ca l vehi cle requirement 101' 144,000 vehi cles and to
maintain it s currcnt vehic le lleet size. Army I eputy Chi ef ofS taIT G-3/517 offic ials
Slated that the Army is los ing UA Hs al a rate of approx imately 125 vehi cles pel' month ;
these UAI-Is arc unfit due to theater environm enla I condit ions, the erfec ts or armor we ight
on ve hi cle parls (that is, tire ax les, brakes , engines), or batll e damage. In additi on, many
of the UA Hs inthea lel' arc approaching or have go ne beyo nd thcir lIseful operali onalli fe .



17 As of February 2008, the Arl11 y fie lded less lhnn 10 perce llt or tlle Multi -Nntiollftl Corps - IrilCJ 

requirement for appl'oximatcly 12,000 MRAP vehicles. 

18 The AI'I11)' will purchase )-IMMWVs with removable ficld-oll 011' 11101' protection that provides grcfilcr 

Ocx ibility when depl oy ing units. This cfll>flbility allows the vc hicles to be used ill both comba t find 

no ncQlnbnt enVil'Otl lllCnlS. 

19 ACCO I'dillg to Arm)' Deputy Chiefo f Starr G-3/S17 onicials, th e Joint Light we ight Tncti cn l Vehicle will 

have th e speed, 11 Hlllcuvcrab ilit y. (md mObility orn II MM\OVV with the protection of an MRAP vehicle. 

Cllrrcntl y, there arc IlO JOi l11 Li ght weight Tacti cal Vehi cles ill prod ucti on. 

~o As or Apr il 2008, th c lotfi l LJA llrcq uil'cmenl consists or fln opera tional n!C) llireI11CIlI   for 19,645 vehicles 

and fi ll ArlllY Prcposiliollcd Stock requ irement ror 1,478 ve hi cles. 


                                          f81l 8f1FI@fAb "BE 8PlbY
                                                              15
Army Deputy Chi ef of Sta ff G-3 /5/7 offi cial s also stated that approximatcly
7,000 I-IM MWV. mu st bc purchased pCI' year in Ol'der to ma intain the I-IMMWV element
of the 144,000 li ght tact ica l vc hiclc rcq uircmcnt.


Marine Corps MRAP and UAH Requirements

The Marine CO t'[ s' ini tia l requirement for MRAP vchi clcs was developed ba sed on
theatcr command crs' nccd for vchicles offcring incrcased sUI'v ivabi li ty for Marines
operating in haza rdous arcas and to sati sfy operati onal and traini ng rcquircments. The
Ma rine COI'PS adj usted its I'cq ui" ement for MRAP vehicles ba scd on rcco mmcnd ations
fro m lie ld co mmandcrs scckin g to rcfi nc thc initialrcqu ircment by optimizing f'orce
protection and miss ion fl cx ibility, cnd-uscr asscssments promot ing UAl-l rctention, a
dccreasc in IED incidents, and troop withdrawa ls.

Ma rine Corps offi cials stated thatthc Marin e Co rps will continue to procure UA l-i s
rega rdl ess of li mit at ion rcs ult ing from excess ive armor we ight because they arc th c
appropriate so luti on for some mi ssion scenarios. Speci fi ca lly, UA l-l s arc fa ster more
man euverable combat assets co mpared to MRAP ve hicles, and Mar in e Corps cnd -uscrs
rca li zc grcater mi ss ion Sll CCCS S whcn using b th UA Hs and MRAP vch icles. The
continucd procurement of UA l-l s is nccessary fo r the fu lfillm ent ofnonthea tcr UA II
rcquiremcnts (that is, trai ning and prcpos iti oned stock).


MRAP Vehicle Requirement Quantity Development

On May 2 1, 2006, thc Comm anding Ge ncral, Mult i-National Force - West subm itted a
.l UONS for 185 Medium Mine Protcctcd Vchicles. On July 10,2006, thc om l11and in g
                             N . for 1,000                                         I


                                         .luly
ofMRAP vehicles (including all thrcc MRAP vehi clc ca tegories) to increase thc
survi va bility and mobility of mi litary Serv icc pcrsonn el operatin g in haza rdous fire arcas
and to rcducc the number of lED casualt ies within the Mult i-National Force - West area
of rcsponsibi lity.

Acco rding to Marinc orps ombat Deve lopment Command (MCCDC) offi cials,
approva l of the joint req ui rement fo r 1, 185 MRAP vchi cles by the Office of the Joint
Chi efs of Staff and United Statcs Ccn tra l Co mmand was dclaycd to ensure that all joi nt
scrvicc rcquirements were appropriate ly co nsidered. In order to expedite the approval or
the Ma ri ne Corps' req uirement, Marine orps entra l 01ll l1l and 2 1 or/ic ials rctl10 veclthe


:! I   rvlnrinc 01'P5 Clllm ! Ollllll Cl lld is the Mari ne Corps componenl or lhe United Stales CCIHrnl Commund .

                                         F81l 8FFIElfJI:Is "61> 8NloY
                                                     16                                                              b(2)
Marin e Corps' requirement for 805 MR " » vehicles from the JUONS and submitted an
Urge nt Statement of Need to the Commander, M S on October 6, 2006, specific'l lly fo r
the Marine orps requ irement. Acco rding to MCC DC offi cial s, thc Marine orps
increased the MRA» rcqu iremcnt from 805 to 1,022 vehicles on October 24, 2006, based
0 11 an opera tional requi rement for Operat ion Endurin g Freedom and add iti onal training
assets. On Februfl ry 6, 2007, M CDC offi cials proposed an MRAP vchi ele re luireme nt
incrcase from 1,022 to 3,700 vehicles to the Ma rine Co rps Requ iremcnts Oversight
Coun cil. The increase of 2,678 MR" P vehicles wa s based on Mar in e orps Centro I
Command ' s need to sllpport surging troop levels in theatcr and additi onal homc statio n
train ing support.

On March 5, 2007, the Marine Corps Requirements Oversight Council approved the
increased MRAP vehicle rcqui rcment for 3,700 MRAP vehiclcs. MCC DC officials
stated that the requirement for 3,700 MR"P vchicles was deri ved by first ca lcul ating the
number of J\T I MR A» vehicle that would be required to rep lace. seat for sea t, UAHs
wit h MRAP vehicles (2.985 MRAP vehicles). M CD offi cials then looked at the
MRJ\P requ irement for ex plos ive ordnance di sposal rapid response vehicles and
engineer route reco nnaissance and clea ran ce vehic les fi nd ca lculated the numbcr of all
MRAP vehicle categori es needcdto prov idc those capabilit ies (715 MRA P veh icles). On
May 10, 2007, the .I RO appr vedthe total Marinc Corps rcqu irement for 3,700 MRA»
vchicles.


MRAP Theater Requirement Adjustment

On November 28, 2007, MCC DC officials prepared an informati on memorandum
ex plaining the Marine Co rp rati onale Ie I' reducin g its MRAP vehi cle rcquiremcnt
quantity. Accordi ng to the mcmorandum , M D offi cials all ributedthe reducti on to
reco mmendations fr m fi eld commanders who sought to refin e the initial vehicle
requ iremcnt with thc objective of opt imizing force protection and fl ex ibi li ty. M CD
offi cials fu rther attribu tcd the rcqu ircmcnt rcducti on to the receipt of end-LiseI'M RJ\ P
vehi cle operati nal assessments promoti ng II MMWV rctcnt ion, a decrease in thc number
of lED incidents within the Mari ne Corps area of responsibility, and the withdrawa l of
Ma ri ne Co rps battalions from theater. Thc Nove mber 28, 200 7, memorandu ll1
speci fi call y stated that the Marin e Co rps did not reduce its MRAP vehi elc requircment
bascd on the favorabl e sccurity environll1cnt in Iraq during Novembcr 2007.

(rOUO) On r cbruary 2 1,2008, MCC DC sought moc approva l to red uce th e M RA l'
requirement from 3,700 vchicles to 2,225 vehicles. MCC DC official s informed the
JRO C that          ori gin al requircment was dcvc loped, the Marinc Corps ha d
                             Ii


                                                       commAndo l'<
    approach was to emp loy a mix of vehi cle assets (MR AP vehi cles and UA Hs) based

                               f8tl8fFi @fI'z1s t9BB 8P IIsY
                                          17                                                      b(2)
on mi ss ion and tc rrai n. MCCDC infor mcd thc .JROC that cnd -uscrs Icarncd that the
MRAI' is not the so lution for all thcatcr miss ions. The rcvi scd Marinc Corps MRAI'
vehic le requ iremcnt was approvcd by the JROC on March 3 1,2008.


Continued UAH Procuremen t

Accord ing to MC D offi cials, the UAH remains a crit ica l theater asset beca use it
prov ides thcater commandcrs with a dcg rcc of spccd, mancuvc rability, and mobility that
cnablcs Marincs to pursue enemi es and in teract wi th the popu lace in locati ons th e MRA I'
vehicle is unable to operate. Thc Marine Corps FY 2008 auth ori zed aC. li sition objective
for HMMWVs was 25,385 vehi cles; thc thcatcr UA I-I rcquircmcnt was               UAH s.
MCC DC oJ'fi cial s co nlirmedthatthe total UAI-Ithcatcr rcqui rcl11ent was sati sfi cd as of
Scptcmbcr 19, 2007.

Accord ing to MCC DC offi cials. the average service life lo r a UAI-I in thca ter has bcen
red uccd by 50 pcrcc nl (approx imately 7 years) as a rcsult of actual usage exceeding
ori ginal miss ion profil cs. As of Novcmbcr 2007, MCC DC ofli cials noted that thc Mari nc
   orp. wil l cont inue 10 procure I-1MMWV s to li ll nonthcater I-1MM WV rcquiremcnts and
to compensa te lor thc aging II MMWV ncc!. MCC D ofli cials ca lculate that the Marine
Corps was approx imately 2,000 vehicles short orthe .July 2008 I-1MMWV rcquircmcnt.
M D ofli cial s statcd that as a result r projected UAI-I losscs resulting from theater
environmcntal conditi ons and cxccss ive vchiclc usagc, the Marinc Corps will ha vc an
 II ,OOO-vehi cle deli cit by FY 20 15.




                                                                                            b(2)
                               FOft OFFICIAL tJSE 6NLY
                                              18
Finding C. Price Reasonableness
Determination
Marine Corps Systems Command (MCSC) orli cials did not properly determine that
contract prices were rair and reasonable when they awarded nine Ii rl11 -f'i xed-pl'ice, IDIQ
contl'acts in January 2007 for various MRAi' vehi cles. In addition, MCSC onicial s did
not choose an appro priate contract type for the M RAP proc urcment; a f'i ,.,l1 -li xed-pri cc
contract type was inappro pri ate because co ntract ol'li cials did not perG rm adequ ate pri ce
analys is to all ow a proper deterl11 ination or rai r and reasonable pri ces. Contracting
orli cial s stated that the contract pri ces were fa ir and reasonab le because the procurcmcnt
wa competi tive and that they perrormed pri ce analysis on contractor-pl' posed prices.
Because MCSC awa rded the contracts for dissimil ar vehi cles rather than onc spccific
vehi cle or a commercial vehicle, adequate pri ce competiti on did not ex ist, and MCSC did
not adequately eva luate the pro posed pri ces dllrin g source se lection.




As a result, DoD has no assurance that pri ces paid were ra ir and rea sonab le and likely
paid more than it shoul d                                        I




Federal Acquisition Regulation Criteria

The Federal Acqui sition Regul ati on (FAR) provides gui dance on se lecti ng the
appropri ate co ntract type and determ ining rair and reasonable pricing and adequ ate price
competiti on.


FAR 16_1: "Selecting Contract Types" and 16.2: "Fixed-Price
Contracts"

Contracti ng ol'li ccrs shoul d se lect a co nt ract type th at will result in reasonab le contractor
risk and prov ide the contractor with th e greatest incent ive f'or ef'fi cient and economical
perf'ormance. Some or the factors that the contracting ol'li ce r shoul d consider arc :




                                                                                                        b(4 )
                                                  19
                (8) Price competiti on, Nonnall y, effec ti ve price co mpetition results in
                renlisti c pricing, an d H fi xed-pri ce contract is ord innrily in th e
                Government 's interest;

                (b) Pri ce mmlysis, '" The degree to which pri ce almlysis can provide
                n rea listic pricing standard should be cllrefully considered;

                (c) Cost fttlfl lysis,       Cost cstimnt es of the offcrol' fmd the
                Govcl'lll11ent provide the l>ases for nego tiat ing contract pri cing
                arrange ment s;

                (d) Type and cOlllplexity of the requ irement. As a I'cquil'cmcnl I'CCurS
                or tiS qunlHity prodllclion begins, lhe cos t risk should shill to the
                contractor, an d :t fi xed- price contrnct should be considered;

                (c) Urgency of the requirement. If urgency is n primary fnctor, the
                Governlll ent II1lly choose to nssume a great er propol'ti oll of ri sk 01' it
                mfly offer incentives to ensure lirnely conlmct pCl'forl1lnncc;



                (g) Contrnclors' technical cnpal>ility and fi nancial responsibili ty; and

                (h) Adequacy of the contractor's nccollnting systcms. Before agreeing
                on n contrnct type other thnn finn -fi xed- price, th e contracting officer
                sholl ensure thnt th e contractor's accoullting system will permit tim ely
                devel opment of all ncccssnry cost dm~ .. . . Thi s factor may be critical
                . , , whcn 11 cos t-reimbursement contmct is being consid ered nnd nil
                current or pltst experi ence with the cOlltrlrCIOr has becn all a fi xed pri ce
                bnsis.

Firm-fi xed-pri ce contracts place rullresponsib il ity ror perrorman e costs and resulting
prolit 0 1' loss on the contrnctor. FAR 16. 103(b) states that a Firm-Fixed-pri ce contract
should be used "when the risk in vo lved is minimal or can be predi cted wit h an acceptabl e
degree of certainty. Howeve r, whcn a reaso nab le ba sis for firm pricing does not ex ist,
other co ntrnct types should bc considered."

FA R 16.202-2 states that "a fi rln-fi xed-price contract is su itable for acqu iring commcrcia I
items . . . or ror acquiring other supp li es or services on the basis or reasonab ly definit e
. .. spec ificat ions ... whcn the contrncting orlicer can establish fit ir and reaso nable
prices HI the outset, such as whcn­

               (n) Th ere is ncic<)trl.lI e pri ce c0111pelitioll;

               (b) There nrc rca sonnble pri ce comparisons with prior purchnscs of th e
               same or sim ilal' supplies or services mndc 011 a co mpetitive basis or
               sUPPol1ccl by va lid cost or pri cing data;

               (c) f\va ilabll.! cost or pl'icillg in form atiol1 permit s rCil listic estimates   or
               th e probabl e costs ofpcrfol'llU1I1Ce; or




                                                          20 

                 (d) Performan ce un ce l1allltl(~S can be idcntined all d rcasonable
                 estimates of th eir cost impact can be made, and the COllIractor is will ing
                 to accept a fi nn nxed pri ce represcnting assumption of the ri sks
                 involved.


FAR 15.402: "Pricing Policy"

FA R IS.402(a) states that co ntl'H cting oni ccrs 111ust purchasc supplics and serviccs from
rcsponsiblc so urces at fa il' andrcasonablc priccs.


FAR 15.404: "Proposal Analysis"

FA R IS.404- 1(a) states that thc contracting oFficeI' is rcsp nsible for eva lu at ing the
rcasona blcncs of the offered pri ces and should usc pricc analys is when cost 01' pric ing
data are not rcquircd. According to thc FAR, thc contracting oFficeI' may usc va ri ous
price analysis tcchni ques and proccdurcs to cnsure a fa il' and rcasonable pri ce. FA R
IS.404- 1(b)(2) dcscri bcs pricc analys is techn iques the contracting officcr could have
uscd:

        i) Compnri soll of' proposed pri ces received in response t the solicitation.
        Norm ally, adequilte pri ce competit iol1 es tablished price rcasolHlblclless .. . .

        ii ) Compari son of previously proposed prices and prcvious Governm cllt .. .
        contract prices with Current proposed pri ces ror th c same or similar itcm s, if both
        the validity of th e compari son 11l1d th e reasonablcn ess of th e prev ious price(s)
        ean bc cstnblishcd.



        v) Comparison of pl'Oposcd pl'i ccs with independcnt Governm ent cos t esti mates.
        li nd

        vii) Annlysis of pricing informntion provid ed by the OOCroL

TllC r A R statcs that the lirst two techn iqucs are preferable; howevcr, if the in fo rmati on
On co mpetitive pro posed prices or previous contrac t pri ccs is not ava ilable or is
insufli cicnt to dctermi nc that the price is rail' und reasonab le, then using the other
tccl111 iqllcs arc appropriate.

FAR 15.403: "Obtaining Cost or Pricing Data"

r AR IS.403- 1(c) I(i) states a contract price is based on adcquHte pri ee competition if two
or more responsib le oITcrors subm it priccd offcrs that satisly thc Govcrn ment's cx prcsscd
requ iremcnt and if:




                                                      21 

        (A) Award will be made 10 the offcror whose pJ'oposa lrcprcsclIls th c best va lue
        '" where price is a subslnnt inl factol' in source selccti on; and

        (B) There is no finding thnt th e pl'ice of the oth erwise sliccess ful offerol' is
        unreaso ll ab le.

Firm-Fixed-Price Contracts for MRAP Procurement

M SC of'fi cia ls awarded linn-li xcd-pricc contracts 1'0 1' MRAP vehicles, but thi s type of
co ntract was in appropri ate for the MRA P procurement. Firm-li xcd-price co ntracts arc
norma lly the best co ntract type For procuring commercial items 01' other items with
rcaso nably dcfinitc spec ifi cations IVhcnthe contracting o('li cer ca n cstabli sh fail' and
rcasonable prices at thc outset. Howevcr, MRAP vchi clcs are not co mmcrc ial item s, and
contract ing oflicials did not have cost data or re li ab lc pricing data for dctcrmining that
thc proposed li xed prices wcre fa il' and rcasonab le whcn the contracts were awarded.
MCSC offi cia ls stated that the co ntract priccs wc rc determined to be fa il' and reasonabl e
because they resul ted from a compctitive procurcment. Howcvcr, fai l' and rcasonab le
pricing sho uld not have been assumcd by contracti ng of"li cia ls bccausc adcquate pri ce
competiti on did not ex ist. Adeq uate price compcti tion ex ists when two or morc orferors
submit priced ofFcrs 1'0 1' a rcquircment and the award is made to the offeror whose
proposa l reprcscnts thc bcst va lue. Howevcr, each orfcror proposcd a di ffe rent tcchni ca l
so luti on, and MCSC ofli cials awa rdcd nine separa tc co ntracts for co ntractor-uniqu e
tcchni ca l so luti ons at ninc dilTercnt contractor-proposcd pri ccs. All contracts were
awa rded linn -fixcd-pri ce without price negotiat ion di scuss ions and with out reliab le cost
01' pri cing data.



Contractors Assumed Risk

Selecting a fi rm-fi xcd-pri cc contnlct typc for the MRAP procurcmcnt resulted in thc
contractors ass uming tile burdcn of risk in producin g a vehic lc that met thc MRAP
performance specilicati ons. The MRAi' Acqui siti on Strategy/Acqui siti on Plan dcscribcd
thc limit cd risk to thc Govcrnment: " In or Icr to support the wa rfi ghter' s urgcnt nceds.
there is a requirement to award limited production quanti ti cs pri or to testing to va lidate
the prime contractor' s produ ction capabiliti es. Should ro llow-on tcsting rcvea l that thc
ve hi cles do not mect the rcq uiremcnts; thc govcrnmcnt may termin ate fo r convcni cnce."
Given thc urgcnt nced for thc MRAP capabi li ty in thcater, the top priori ty assigned to
acccicrating deli vcry of thc vc hicles to thea ter, and the ncedlo r successful tcsting of the
techni ca l so lut ions aga inst pcrformancc specifica ti ons, contract ing offi cials should havc
expected proposcd prices to be inn ated to covcr all of th e costs assoc iated with the ri sks
assum ed by thc o frcrors. The lack of ava ilable, re liab le cost or pri cing data coupled with
thc ri sks associated with these co ntracts madc thc M RAP proc urement a p or ca ndid ate
fo r firm -li xed-pri cc contract awa rd.




                                   peA 8FFI91I':15 tiS);; ems
                                             22
The MRAP Source Se lecti on Plan documented the strategy of expedi ting fi elding of the
MRAP vehicles by "p lacing priori ty on sc lecting potent ial vendors for award th at can
mect the de li very schedul e and provide Co mmercial-Off-The-S helI' (COTS), Government
OfT-The-S helf (GOTS), or Non-Deve lopmental item (ND I) vehi cles that ca n meet or
excce I performa nce specificat ions. This procurement wi ll usc a firm -Fixed-price (FFP)
indefinite-de livery, indefinite-quantity (IDIQ) type contract wi th potential awa rd to
mu ltip le ve ndors..." A firm -Fixed-price co ntract type would have been appropriate if the
vendors had proposed commercial vchicles; however, the vendors' prop als were not f'or
commercial vehi cles. The stl'(ttegy did not consider the im pact o f awa rding multi plc
contracts for No n-Developmen tal Item vch icles with unique tec hni ca l so lut ions and
manufa cturi ng circumstances on the dccision to se lcct a Iirm -fi xed-price contract type for
the procurcmcnt ofMRAP vchiclcs.

  onscquentl y, M C official s did not choosc an appropri ate contract type for the MRAP
pl'Ocurement ; the MRA P contracts should not have been awarded on a firm -fixcd-price
basis bcca usc thc procuremcnt was not for commercial itcms, and contracting offici als
did not havc the cost 0 1' pri cing data neccssary to perform the analysis to de tcrminc
whcthc r the contractor proposed prices wcrc fair and reaso nable.


Price Analysis

Contracting offic ials stated th at MRAP contract prices wcre fair and reasonabl e because
thc procurcmcnt was compctiti ve and that they pelfo rmcd pri cc analys is on contractor
proposed prices. However, MCSC co ntracting offic ials did not adeq uately eval uate
pI' posed cont ract prices, and thc dcc ision to award con traCtS t nine offerors on the basis
of bcst valuc did not includc adeq uatc pri ce analys is as a factor.

MCS officia ls statcd that pri cc was not a ratcd fac tor in the source selecti on, and that
contracts were awardcd to all offerors who could meet technica l capab il ity req uiremcnts.
Conseqllentl y, pri ce was not a sllbstanti al fa ctor in source selecti on, as required by the
FAR for dctcrmining that the contract pri ce was based on adcqllate pri ce competiti on. As
sllc h, dctermination of pri cc reasonablc ness during thc contract award shou ld havc llIkcn
on cven more importance.

FlI rthermore, the Source Sc lccti on Auth ori ty (SSA) made the dcc ision to award co ntracts
to ninc offerors nthe basis of bcst val uc, blltthe best va illc decisi n did not incillde
adeqllate pri ce analys is as a ractor. An e-mail from the lead contracting offi cer to
contracting personnel stated that the SSA "made th e determinati on that [the co ntrHct
pri ces) werc fail' and reasonabl e based upon [thc SSA ] maki ng a best va lllc judgmcnl.'·
Thc contracting officcr stated thatthc SSA wanted to award contracts to the contractors
who met the tcehnica l capability rcq uirements and that contract of'fi cials did notnccd to
jllstiry prices as fair and rcasonHblc. Though the SSA made the best va llie dec ision, the
deci sion did not inci llde adequate pl'ice analysis as a ractor in the decision; fllrthermorc,




                                              23 

th is decision did not rcli eve th e contracting orri cel' 01' his responsibi lity 101' determining
fa il' and reasonable pri ces.

MCSC ofli cials also developed an Independent Government Cost Est imate (IGCE) 22 to
determine wheth er contractor proposed prices were fa il' and reasonable. The FAR states
that a contractin g orriccr ca n establi sh fa il' and reaso nable pri ces when there are
rcasonablc price compari sons with prior purchases orthe same 01' similar items made on a
competiti ve bas is 0 1' supported by va lid cost 0 1' Iri cing data . However, M S offi cials
developed the IG E using pr ice data from a prcvi ous so lc-source contract


                                                                 Selection I~vlllmilli,       I i
                                   Im"IIl O co ncern s I'elated to 1'1'11 costs based on 1'1'1 1 past




In add ition, one M SC orfi cial notcd that, due to th e unique characteri stics orthc vari ous
tcchni cal so lut ions proposed by thc ninc contractors, pri ces should not bc compared
against each other. Consequ ent ly, using previ ous 1'1'11 con tract pri cing data t develop
the IG E for price evaluation of all MRAP vehi cle variants was inadeqllate and did not
co nsider the un iqu e manufacturing circumstances of each contractor. The price analysis
performed by MCSC olli cia ls was not supporled by valid pl'icing data, and the analys is
was inadequatc ~ I' detcrminin g wh cthcr the proposcd contractor prices were fail' and
reasonable.


Proposed Contract Pri ces Varied Significantly

(I"SelS) Contra cting offi cial s did not adequately cva luatc thc pro posed cont ract prices or
oth erwi se properl y determi ne pri ce rcaso nabl eness 1·0 1' the variances in prices proposed
by the nine contractors. Pro posed unit prices 101' MRAI' CAT I vehi cle orders for rewer
than 200 vehi cles va ried from as low as $3 06, 199 to as hi gh as $ 1,08 8,808. Proposed
unit pri ces for MRAP CAT II vehi cle orders for felVel' than 200 vehicles vari ed from as


22Th e IGCE is th e Governm ent es tim ate of the resources and proj ected costs n co nt ractor will incltl' illihe
perfo rman ce or n co nt rac t.


                                       f'8~ 8f'n~IAIs          WSI! 8NIsY
                                                        24
                                                                                                                      b(4)
low as $424,582 to as high as $ 1,244,9 17. See Tab le 3 fo r un it pri ces proposcd by the
nin c contl'actors for quant it ics of 1- 200 vehicles.

The contracts did not co mmit the Government to purchase more than rour test vch iclcs,
Subscqucnt dcli vel'y orders were not alVar Icdto the contmctor with the highest pri ce
vehi cle ( PY) beca use the contracto r rail ed to de liver vehi clcs on time. In add ition, the
lowest pricc contmctor (OTC) rece ived a single delivery order for 100 productio n
vehi cles; howe ver, signifi can t cha nges to the veh icles lVere I'eq uired, and no additional
 rders were placed. Consequcntl y, the range or prices pa id by the Government ror
vehi cles produced were not as disparate as Tab le 3 mi ght suggcst. Howcvcr, th c
contracting offi cel' committcd the Government to firm -fi xed pri ces ror all future deli very
orders wi thout determ ining the priccs we re rail' and reasonable and that the highcr pr iced
vchi clcs provided add itional va luc.


                        (FOUO) Tuble 3. Contractor l'roposed Prices
                                    (Quantity of 1-200 Vehicles)

                   Contmctor 

                     OTC 

                     AHI 

                     FPII
                    GDLS-C 

                      BAE 

                      PY I
                     IMG · 

                    Textron 

                      GPY 

                  • IMG subsequent ly                                 r
                  ve hicle pri ces vollilltari ly, and the initial prices were   11 0 1 exercised.




Contracting offic ials stated thnt vehi cle Llilit pri ces vari e I bec>llise oraddit ional features
prov id ed by the contractors and beca use each co ntractor prop sed co ts Ie I' its unique
vchicles. Specifi ca lly, contracting offi cia ls stated that whil e all nine proposa ls met the
technica l apab ility requiremcnt. in the olicita ti on, somc co ntractors chose to go beyo nd
the perf'ormance specifi cat ions and include addi ti onal fca tures. One offi cial provided an
exa mple, stating that comparin g th e vehic les was like compa ring a Pord to a Mercedes,
Of concern, however, is that contrac tin g orFi cials did not perf'orm any analys is indi cat ing
that the prcmiums pa id fa r the add iti onal features related t rece iving more value. MCS
offi cials considered the add iti ona l reatures a bonus for which the Govcrn mcnt was
willing to pay a premium . The ovel'nment could potenti all y be pay ing a premium 1"'01' a



                                    F8R 8FFIEiVd" 19613 8PlbV                                          b(4)
                                                       25
lesser vehi cle because adeq uatc pri cc analys is was not per rormed to determinc that the
add itiona l reature were ra il' and reasona bly priced.

Thi s was not a normal co mpctition because contrac ting offi cials awa rd ed contracts to all
co ntractors whose proposa ls met techni ca l capability requircments, and contractors wcre
notundcr thc normal competitivc pricing pressures. The orre rors proposed dirrcrcnt
tcchni ca l so lutions, and co nt racting ofli eials purchased diss imi lar ve hi cles, stating that
th e vari ances in the proposed pri ces allested to thc vuriety or vehi cles being purchascd.
As a result, contracting offi cials commilled thc Go vcrn111cnt to lirm-li xed prices 1'0 1'
dirrerent vchicles 1'0 1' whi ch hi stori ca l co nt ract pricing data did not ex ist.


Price Evaluation Team Reports

M SC offi cials cstablishcd a pri cc eva luation tea m (PET) to eva luate prices 1'0 1' MR AP
vehi cle cont racts, but the PET did not adequatcly evaluate proposed pri ces. The PET
rev iewcd each or thc 10 co nt ractor proposa ls 1'0 1' comp liance with the term s and
conditi ons orthe so licitation. One proposa l was exc luded rrom consideration based on a
co mbin ation or wea kncs es and deliciencies regnrding technica l approach and deli very
schedu le ror MRAP vehic les. The PET report results did not lead to any nego ti at ion
disc uss ions with any ofTerors on pricing; thcre rorc, the PET rcport res ults did not lead to
any lowcr contract pri ces. The PET reports co ntain ed in co nsistcncies, diserepn ncies, and
errors; consequenLly, thc accuracy and vali dity or many or the PET conclu sions wc rc
matcrially nawed .

Although the PET concl usions were materi ally nawed, the PET dctermined that some
proposa ls were not compli ant with the so licitati on and reco mmcndcd discussion with one
orreror. Spec ilica lly:

        • 	 Seven orrerors 1'01' CAT I and seven ort'crors 1'0 1' CAT II were compli ant lVith
            so licitation requirements. Howevcr, rour or thc AT I-comp li ant orrerors and
            five or thc CAT II -compliant ofTel' rs requircd clarifi cat ions on zc ro dollar
            va lue CLlNs, fi eld scrvicc rcqu ircmcnts, Government runding e,x pcctatio ns on
            the part orthc orrcror, and othcr issues unrelatcd to pri ce ncgot iations.
        • 	 Two orrcrors who proposed CA T I and AT II vchiclcs wcrc not compliant
            with so licitati on requirel11ents and should notrccc ivc contracts bccausc
            vchicle 0 1' support CLi N pricin g was not prov ided or becausc thc co ntractor
            proposed conditional pricing.
        • 	 The GPY oITcr was comp liant with so li citation req uiremcnts but thc PET
            recoml11ended discuss ion with PY to obtain a morc compctitive pri ce.

Co ntracting of'fi cials prov ided nine e-mail co ml11un ications docul11enting that SO I11C
discuss ion took place with nine orrerors. Il olVcvcr, the c- mail s discussed deli very



                                 FQII;   QFFJ~J:\k     \<lSI! QMkY
                                                 26
schedule in fo rmati on Or other so li citation requireme nts that
                              .                 .            'ire n1cnl




We found that two of the seven contractor proposa ls determined by the PET to be
compliant with th e so licitalion did not comp ly wit h so li citati on req uirements. In
add iti on, the PET fa iled to iden tify significant va riance between the proposed price and
thc corrcspond ing IGCEs.

The PET incorrectly G und two of th e nin c contractor's proposa ls to be compliant and
rcco mmended contract awa rd. The so li ci tat ion stated eac h orferor must price all
CLl Ns 2•1; howeve r, OTC and PV I failed 10 offer a price for th e techn ical da ta CLi N.
Wri tten communi catio ns from th e MCSC Deputy Coun sel to the PET stated that offerors
who fa iled to price a CU N were noncomp liant.


Discrepancies Between Proposals and IGeE

(1"'810)8) The PET fa iled to identify significant variances between proposed pri ces and
the corresponding IGCEs. Spec ifica ll y, th e PET fai led to identify a materi al error
co nta ined in the FI' II pri cing sprea dsheet. The error inadvertentl y mi saligned proposed
I ri ces wit h their correspo nd ing IG lOs and res ul ted in multi ple pricing di screpancies.
Co nsequentl y, the PET eva luated 20 01' 66 proposed prices agai nst the incorrcct IG Es.
                    I PET eva luated the pri ce for CLi N 0 I04 (CAT I MRAP Option) at
                         nst an inco rrectl GC . o ~ whi ch actu all y corresponded to CLi N
                       Day Co nsumab lcs), resu lting in a diffcrence of approximate ly
                Ilcr,cen,l. The PET did not co nsider the var iance signifi ca nt. We did nOI
       ve any documentation indi ca tin g that the mi sali gnmcnt elTor was identifi ed by
MCSC offi cials prior to our aud it; the PET report stated that "while indiv idua l proposed
CLi N prices [varied) from the IGCE LIN pri ce, none of the differences [were]
considcred significa nt to warrant clarifi calions or di scu sions." The correct IG E



2) The c-nmi l to DLS-C requested th at ODLS-C orficinl s cfl lllhc cO llt mcting officer to di scuss issues
related to th e proposal; doclllllents provided by MCSC offi cials did nol include detail s of the co ntracting
ofti ccr's issucs or concerns.
,.. Ve hicle CLiNs nrc LIN 0001 - COlcgory I ve hicle, CLi N 0002 - Cntcgo ry II ve hicle, CLi N 0300 ­
alllbulance variAnt , (\1Id CLI N 030 I • Specinl Opcl'fll ioll COlllmand veh iclc vnriant. Other CLi Ns are
l1 e ll ~ vch i c1 c CLl Ns, slich as for logistics slipper!.


                                      1*8M 81'FIe'1 tis' liilii QI'IIsV
                                                       27
                                                                                                                  b(4)
amount ror LIN 0 104 was actuall                                        and the con·eet percentage
difference was. ercenl.

 (F8~Sl M SC oflieials stated that dirferences between CLi N pri ces among orferors
and compa red with the IGCE resulted from indi vidual pricing strategies of the orferors
and cost dirferences between proposed so lu tions. Any signili cant var iation between a
contractor prop sal and the IG 10 shoul d req uire ana lys is. In six or the nine co ntractor
 proposa l eva luati ons, the PET reports stated that price va ri ances were not signifi cant
enough to enter into di scuss ions wit h the oITerors; the PET reports did not add ress th e
 signifi cance orprice variance ror the remainin g three contractor proposals. Although the
 PET considered the va riances in signifi cant, the ind ividual I roposcd LIN and sub- LIN
 prices varied from the IGCE CLiN pri ce, in one euse as much as almost
 24,000,000 pe rcent. por examp le, the CAT I and II PET eva lu ation reports documented a
 var iance or47,946 percent between LIN OO~1Crc i a l Techni cal Ma nuals) fo r
 IMG and the IGCE; the IMG CLi N price was_                       and the IGCE pri ce was
_          The PET eva luation reports also documented a variance of 3,783 percent
 between CLi N 0032 (Technica l Da t~E and the IGCE; the BAE CLi N price was
_              and the I CE pri cc was_            Although these are ex treme examples,
 36 CAT I CLINs for IMG exceeded the IG E by more than 100 percent, and
 14 exceeded the IGCE by more than 1,000 percent. In add ition, 17 CA T I CLiN s for
 BA I~ exceeded thc I CE by more than 100 percent, und 9 exceeded the IGCE by more
than 1,000 percent. See Appe ndi x B for deta il s on the IMG and BAE CLi Ns for CAT I
and A'I' II vehi cles that exceeded the IGCE by at least 40 percenl.

MCSC contracting offi cials who prepared and approved the Business Clcanlnce
memorandu m25 questi oned thc PET tatemcnt on the insign ifi ca nce of price vari ances
between contractor proposed pri ces and the IGCE. The memorandum notcdthat a rev iew
of the in dividual CLiN s and sub-C LINs revealed that several proposed prices rrom
various olTero rs had s i g n il~ca n t dirferenccs between the proposed pri ce and the IGCE
price. MCSC offi cials did not ex pl ore these dirferences, co uld not ex plai n why they did
not explore the differences, and ava ilabl e docum entat ion did not address the issue.

As or Dece mber 3 1, 200 7, co nt ract ing orfi eials exercised 383 nonvehicle CLl Ns, val ued
Ht approxi mate ly $ 1.4 billi on, on the 7 MRAP co ntracts. 01'383 exercised CLINs,
11 6 Ll Ns, va lued at approx imately $ 1.2 billion (86 percent), had no corresponding
IGCE amounts for pri ce eva lu ation. The remai ning 267 exe rcised CLl Ns, va lued at
approx imately $250 milli on, had corresponding I GC I~ amOlln ts, but 81 LINs, va lued at
approx imately $5 0 mi ll ion, were at least 40 percent higher than the c rrcspondi ng IGCE.
The total va lue of tile dirferenee in pri ce rr m 81 exercised LlNs and their
corrcsponding IGCEs was approximate ly $40.6 milli on.



lS The Business Clearall ce l11 emo]"tllldul11 documented the sou rce SCICClioll process [l lid the basis for contract
award for MRA P vehicles. The ll1c tll o l'ftn du lll WRS prepared) reviewed. nne! appl'Ovcd by cOll tl'fl cling
onida ls withi lllhc M SC conll'flcling departm el1t chain or cOIllIlH1ml .

                                       fSR SFf'I@lJ'zb t;8B            8PJ~N
                                                         28                                                              b(4)
As" result, the PET conclusions were matcri ally nawed and were in adcq uatc for the SSA
to use as a fa ctor for dctcrmining best va lue. In add iti on, a va ri ance of 40 percent or
greater between the ofle red pri ce and th e IGCE may indi catc a significant di ffcrence
between the requ iremcnt and what was being offered by the con tracto r. Notably, an
MCSC official acknow lcdged many LlN s wcrc not yet properly defined at the time of
contract award. We be li eve thi s clearly indicates that adeq uate price compe ti ti on should
not have been used as the bas is for accept ing prices.

Indi vidual PET reports on cach contractor did not document whcther proposed co ntract
prices were determined to be fair and reasonable with the except ion of the PET report on
GPV, which stated that GPV pri ces were we ll above the IGCE and the average offered
price and, therefore, not ra il' and reasonabl e. However, the January 8,2 007, Source
Se lccti on PET briefin g on its summary res ults conc luded that the contract pri ces for
8 contracts wcre fa ir and reasonable. Wh en we a ked MCSC orri cials about
discrepa ncies and errors in the PET reports, thcy rcsponded that "The PET reports whic h
rde rcncc individ ual offcl'o rs cannot bc used in a vacuum . Visibili ty in to th c indivi dua l
tcchni cal so lutio ns provided by th c ol'l'erors arc nccdcd to determine whet hcr indi vidual
pricing strategies are fail' and reasona ble 0 1' are considcred significant differe nces
wa rrant ing discuss ion. " However, the PET bri efin g did not addrcss the oflho rs'
tcchnica l so lut ions. The bricfin g add ressed whcUlcr cncll offcr was com pli ant with thc
so li cita tion, I' quired clar ifi cati on, rcqu ired di scuss ion , whethcr 0 1' not awa rd was
recommendcd without discussion, and whether the contract price was fail' and reasonab le.
The brie fin g co ncluded that eight of'the ninc co ntract pri ces wc rc fail' and reasonab lc.
The current lead co nt ract ing offi cci' rev iewed hi s forensic contracting documents and
could not expla in how the PET conc lLlded that the priccs were fai l' and reaso nabl c. Ou r
rev iew of the PET analys i., results, bri efing to the Source Se lecti on Adv isory Co un cil ,
and othcr supporting docLllncntation indi ca tcd th at the fa ir and reasonab le pri ce
dc terminati on made by thc PET tea m was fl awed, in adequate, and did not address
indiv idual tcchn ica l sol utions. The fai l' and reasonab lc pri ce detcrm inat ion was a factor
in the SSA dcc isionto awa rd all nine co ntract on the bas is ol'best value without price
negotiati on di sc uss ions. In add iti on, M SC awarded a contrHct to GPV at the GPV­
proposcd pri ce even though the PET determ ined that th e price was not fair and
reasonablc, and reco mmended di cussion be fore awa rding a contract. However, the
contracti ng of'ficcr te rminated the contract with GPV in a no-cost elli emcnt after GPV
fa il cd to d liver test vehi cles on timc.


Independent Government Cost Estimates

Thc IG Es, dcvc loped by MCSC personncl and used by the PET, wcrc dcfic icnt and
inadcquate fo r eva lu at ing proposed MRAP cont ract prices. MCSC of'fic ials
acknow ledgcd that thc IGCEs were a poo r cstimatc of all costs due to the lack of we ll­
dcfi ncd rcq uircments Lised in dcvelop ing the IGCE. We beli cvc, howcvcr, that due to thc
unique characteri stics of thc va rious MRAP veh iclcs, thc pri ces or thc vehicles should not
ha ve bcen compared to each othcr 0 1' to a singlc IG E.

                                 F8Jl 8FFISMb l!IS6 8PlbY
                                           29
An M S orti eial stated that thc IGCE was based on so lc-source contract pri ce dato 1'1'0111
the May 2006 c ntract with PPII fo r the Joint Explos ive Ordna nce Disposa l Rap id
Response Vchi clc (JERRV). The offi cial also statcd shc used the JERRV contract price
information in develop ing the I E and created the IG E prior to thc
req uest for        for MRAP vchicles. However, the rcli ab ility




     not co nduct a revi ew of thc May         contract costs
The results of any co ntract action in ter111 Sof qua lity and rcasonabl cness of price/cost
relic hcavi ly on the accuracy and reliabi lity of the IGeE, part icul arly sincc thcrc was no
tru c competition in thi s casc.

Adcqu ate competition can be cxpccted to result in fail' and rcasonable contract prices.
However, an M S orti cial statcd that they awardcd contracts to all offerors th atmct
tcchnica lrcquircments, and pricc was not a rated fac tor in th e so urcc sc lccti on process.
The so licitati on spec ifica ll y stated th at "the pri cing proposcd by th e offerors wil l be
evaluated, but not rated." Adequate pricc compctition did not ex ist, and contracting
o ffi cial s should not have ass umcd contract prices wcrc fail' and reaso nab le. M SC
contracting offi cials did not adeq uately determ ine fail' and reasonable pri ces fe r the ninc
MRAP co ntracts, givcnthe diffcrenccs in prices offered, the differences in the vehicfes
purchased, and the fact that hi storical indu stry data for thc itc111s purchased did not ex i l.
In addit ion, the contractin g oHicc r intended to award contracts to all of the contractors 101'
thcir un iquc MRAP ve hi cles.


Truth In Negotiations Act

A bcllcr approach would havc been to obtain cost 01' pricing data, whi ch would have
afforded the Government thc protection of the Truth In Ncgot iati ons Act, as amcnde I by
sec ti on 2306a, titlc 10, Un ited State ode ( 10 U.S.c. 2306a). The Truth in Ncgotiati ons
Act all ows 0 00 to obtain cost 01' pricing data (ccrtili cd cost info rmati on) from Defbnse
contl'1lctors to ensure thc intcgrity of 0 00 spcnding for military goods and servi ces that


26 De M !\ persollilel Sla ted th at they did 110t request that DC,\ A review the May 2006 contract costs
bcc(l\Isc fI D AA rcport would not be isslied be rore th e con tracts were aw,mled. Specifically, DCAA
pel'sollllel stated thftt DCAA issued itsreports 011 th e May 2005 cont ract in J:m muy Illle! Pcbnmry 2006,
wh ich dclllycd th c rvhly 2005 contract dcfi nilization, D MA pcrsollnel stal ed Ihal the defi ciencies reported
                                                                                                or
ill Janu ary :111(\ Fcbnmry 2006 st ill ex isted in May 2006 and ill ord er to minimize any delay   contract
ci cfinili zflt ioll, nCr-AA did 110t rC(lllcst n CAA to rcview the May 2006 COlllraCI.

                                      f8ft 8ffl@i:'zl5 ij81il 8PIisY
                                                       30
                                                                                                                    b(4)
arc not subject to markctp lace pri ci ng. Sincc the vehi cles were not in product ion or
avai lab le in the marketplace, we believe it would have bccn most al propr iatc to have
used cost or pr icing data to estab li sh prices. Contracting ol'ficia ls llsed the [,au lty
justificat ion thatthcy wcre not rcquired to obtain cost and pricing data because the
MRAP procuremcnt was competitivc evcn though they had pricing c nccrns related to
the IGCEs.


Pricing Discounts
MCSC awarded mu ll iple deli very orders to seven co ntracto rs. However, two contractors
werc exc ludcd from rccciving additiona l vchicle orders duc to automotivc and human
factor iss ues or inabi lity to meet contrac tual ob ligat ions. Con sequently, MCSC awarded
l11u ll ipl e vchi cle ord ers to the remaining fi ve contractors: AHI, BA ,1'1' 11, GDLS- , and
IM G.

                                                           attcmptto obtain any cumu lat ivc quanti ty ~
                                                                though such disco unts wcre offercd by_
                                                            il s on pricing and quantity data for the fiv e



                                       (FOUO) Tab le 4. Contracto r SUlI1l11a ry

                                                Slepl adder Stepladde r
                                                  Price ror          Price    fO I'                             Tota l           '1'01. 1
                           Were Pri ces             upto              up to                                  Quantity           Qtlantity
                           Adequately               1,5 00            2,600                                  CAT Is             CAT li s
       Contrflctor          Eva luated?           CATI s             C    T li s                             Ordered            Ord ered
      IM G                       No                Yes                   Yes                                4,455                 16
      BAE'                       No                Yes                   Yes                                    15             1,329
      AlII'                      No                  Yes                 Yes                                1, 154               684
      GDLS-C'
      FP II
                                 No
                                 No
                                                     Yes
                                                     Yes
                                                                         Yes
                                                                         Yes
                                                                                                          -     10

                                                                                                                                •
                                                                                                                                  10

      lnAE also rccc i\'cd orders lor 259 SO OIVI \'Clri(1Il1 vehictes und 128 1lt1lbulul1cC \'nrinnt \ ' chict~ s Ih il t arc not rcncctcd in
      Tobie" bcco use these \'chicle ctllcgorics hud scpllmtc Ilricing stepladder liers. 

      lGDLS .C also n..'cci\'i.'cI on:ll-rs ior 295 CAT II (with CAT I sculi ng) vchicles Hncl305 CAT II SOUlIl AfriClll1 "Miotll (wilh 

      CAl'I sCUIIIlg) vehicles Ihat urc not r~ncc lcd in 'l'nblc 4 bccnusc Ihese vchicle C"Ic8ories hud Scpomle I)ricing Sh.! I)loddcr 

      tiers. 





111ad liti 11 , MCSC                                                                                        corrcspond iI1 g vo lumc
pricing di sco unts 11 '0111                                                                                excess of the l11aximum
quant ity statcd in the contracts.




                                                fQR       Qffl€1llt~             USe    8PI~Y
                                                                         31
                                                                                                                                                 b(4)
Volume Pricing Discounts for Quantities Exceeding Contract 

Maximum 


MCSC contracting omcial s fail ed to obtain co rresponding vo lume pri cing discounts 1'1'0111 

IMG and FPII for quantities ordered in excess ofthc 1,5 00 max imum qllAntity allowed on 

their co ntracts. The contracts stated: 


          Th e Government shall pllrchase n "ll1inimulll" CjlHHltity of two (2) ntcgo ty I 

          nlld two (2) Category II Vehicles for thi s contract wi thin 30 days arter contract 

          award , The "maxi mum" quant ity or Mine Resistant Ambush Protected (MRA P)
          vehicles rol' th is CQIlI I'('\ct shall not exceed I,SOO- Ca tegory I, And
          2,600-Ca,egory t I.

 As or December 3 1, 2007, MCSC contracting offi cials awarded 5 deli very orders to IMG
.IlilwU.0tal of 4,455 CAT I vehi cles, and 6 de li very orders to FPI I for a total of
~AT I vehicles 27 The contra ts specified that the max imum quan tity of AT I
 vehicles to be ordered under each contrAct was 1,5 00. Contracting officials modified the
  IM G contract twice to increase the maximumnut11bcr of AT I vehicl es that could be
 ordered in the base yeHl' f" om 1,5 00 to 4,000 vehicles .28 Supporting documentation
 indica ted that co ntracting of'fi cials mod ified the eont "1\ct 29 to increase the base yell!'
 maxi mum vehic le order based on a belief that they could purchase lip to 20,5 00 ve hi cles
 (4, 100 veh icles during the base year and 4, 100 veh icles during each of four opti on yea rs)
 whencver necessary. Specifi cally, the co ntracting of'fi eer stated in the mod ifi cati on that
 the Govel'tlment wa rea ll ocating vehicle quantities 1'1'0 111 future option years to the base
 year. However, quantities from future unexercised opti ons may not be lega ll y borrowed.
 The Govel'tlment exceeded the maximum quant ity provided by th e contract resulting in a
 vio illtion or the scope ol' the con•     . The add iti onal quantities purchased exceeded the
 contract max imum by so much              from FP II and 2,955 from (M G) that it is unli ke ly to
 have been rea onab ly anticipated by the ofk rors. Therefore, the additi nal quantit ies
 shou ld have been competed to ensure fair and reasonab le pri ces or justifi ed on a so le­
 so urce basis to comply with th e Co mpetition in ontraeting Act of 1984, as amended by
 Publi c Law 98-369, a implemented in the FAR.




27 The numbers of del ivery orders und ve hicles do not include th e fi rst delivery ord ers aWfl l'clcd for two les t
ve hicles pcr cmcgary.
28 Th e  lMG contract Wfl S mod ified 0 11 October 19, 2007, to increase the ll1aX il11l1l1lllUl1I bcl' orCAT I
vehicles Ihill could be !'dercel fl'oll1 1,600 102,500; the IMG contract wa smodified a sccon cl limc all
December 17, 2007. to increase the max imulll llumbcrofCAT I vehic les that could be ordered fl'01l12,500
to 4,000. The first modifi ca tion increased the AT I maximum from 1.600, but the origi nal conlmct stal ed
that th e Ill tixim ulll was 1,500; the contl'Rct ing officer Slated lhat the maxim ulll stated in the fil'si
modifi cation was in Cl'l'O r ,
2'1 olllmclillg officia ls executed bOlh mocl ificati ons to th e IMG contract fi ner tile delivery orcJ ers fol' th e
vehicles were pl aced, lind con tracti ng officials n'i lcd to modify the contract to include the purchnse of
455 vehicles over the modified maxi mulIl of 4.000 vehicles.

                                       F8ft 8FFI@Mb t;Sf! 811M'
                                                         32
                                                                                                                         b(4)
M re im p rtant ly, the con t1'acting offic ials did not make any attempt to negot iate fa ir and
reaso nable pr ices for thc Go vernment whcn they ordered more vehi cles than all owed by
the co ntract. Eithcr competiti on of the requirement or a sole-so urce justification would
have prov ided the Government with the oppo rtunity to negotiate a fair and reasonabl e
pri ce. Whcn the contracts we re fir I awarded, the ri sk ofperfonnance to deve lop a
vehi cle that had not been prodLlccd befo re was placcd so lely on the contractor by using a
firm -fi xed-price contract. It woul d be expected in this typc of ri sk shi ft ing that the
contractor wou ld innate th e expected costs to covel' the unknown ri sks of deve lopme nt.
Whil e not an appropriate contr8cttype at the outset, by the time the modifi ca tion was
negoti ated , the risks and costs were known and this presented an opportunity for the
Gove rnmcnt to obtain rel iab le cost 0 1' pricing in for mati on in order to establi sh a fa il' and
reaso nable pri ce. At a minimum, ifurgency did not allow time to obtain thi s informati on,
the Government sh uld ha ve sought to obtain di scounts in linc with those being offered
by the other contractors.

MCS offi cials stated that they save Ithe Government $ 127.3 milli on by pay ing basc
year pri ces instead orthe higher option year prices for the inc reased number or vehi cles
pu rchased in the base year. Howeve r, the ve hi cles were purchased in the base yea r, and
the number of vehi cles ordered in excess of the initial contract maximum was
signifi ca ntly beyond the contract scope. Prudent busincss practices wou ld dictate that the
buy be recompeted or, at a minim um, the pri ce renegoti ated to ensurc a fail' and
reasonable price fo r th e increased num ber of ve hi cles. Furthermore, the contracting
o ffi cer co uld have placed the deli very orders aga in st one of the other co ntract to avoid
exceed ing the max imu m ord er qu anti ty. When we asked contracting offic ials why they
did not order these vehi cles from a differcnt contractor, they tated that the users
prererred specific ve hi cles manu fact ured by IM G and FP II. The unique characteri sti cs of
the preferred vchicles may havej usti fieci a so le-so urce procurement for the additional
vehi cles. Nevertheless, MCS co ntracting offi cials should have either obtained an
additi ona l pri cing di sco unt eOI'l'espondi ng to the quant ity ordcred when the deli ve ry
orders were placed or negotiated a ra il' and rea onab le price ror new delivery orders once
the quantity exceeded the max im um order quantity stated in th e co ntract.


Cumulative Quantity Pricing Discounts




                                                 33                                                     b(4)
                                          Table 5 sholVs the li ve contractors and the priccs for the
                                  Heloo rdillO to th e c ntracl.

                        (FOUO) TlIble 5. Co ntl'llctor CAT T Stcpladd er Tiers
                                                Uni t    Perce ntage Cumulative




                                                         i I struclli rc 1      I
                      is the most curre llt structure, nnd IWO out of ji ve production          order.! awarded to
                      IMG used thisprice l>lructurc, We tlsed this StCI)itldder price SlrllClllrc in our nnal}'sis or
                      I)ricitll?- discOuntSoOcrcd by IMG.




BAE Offered Cumulative Quantity Di scounts

(r8l!18) BAE orfered cum ulati ve quant ity discoll1lls across delivery orders and vehi cle
va ri ants. For exa mple, BAE rece ived deli vcry order 0003 for a total or 44 t vehiclcs:
255 AT II vehi cles, 170 SOCOM va ri ant vehicles, llnd 16 ambulance vari ant vehicles.
BA E




30   BAE   Oll ly   orrered fl stepladder pricing structure fo r qU fl ll titi cs        lI f}   to 333 SOCOM vMinn l ve hicles.

                                                  FQ~ QFFI~lhI5 U~1!l                     QPlIs¥
                                                                        34
                                                                                                                                   b(4)
(1'0\:10)
rece ived dc li vc lrv




                         F8R 8FFI@IAb t;SI!l 811M'
                                    35               b(4)
(F9e.J9) MCSC omcials stated that AI-II delivery ordc rs did not include cumu lative
quantity di scounts ac ross vehicle vlll'ia nts pel' delivery order. Spec ilica ll y, M
offi cials stated that the 1, 154 AT I vehicles ordered undel' deli very order 0002 were
actually CAT II vehicles; therefore, the ent ire delivery order was for CA T II ve hi cles, and
was subject to cumul ative quantity discounts 01' the smne catego ry, not cum ulative
quan ti ty disco unts across vchic le va ri ants. However, AHI contract modification number
1'00007 establ




GDLS-C Offered Cumulative Quantity Discounts

(ro~o) GDLS-C also ofFered cum ulative quan tity di scounts acr ss vehicle va "; ants.
GDLS-C rece ived deli very order 0003 For a total 01'600 vehicles: 295 CAT II veh icles
ancl 305 CAT II Sou th Africa n (S.A.) va ri ant vehi cles. The GDLS-C contract spec iFi cd
                        .                .




(FQ 'IQ) MCSC officia ls stated that GDLS-C deli very orders did not include cumu lative
quant ity discou nts across veh icle variants pel' de li very order. Specifi ca ll y, MCSC
 ITicinls statcd that the GDLS-C CAT II and AT II S.I\. variant s were b th AT II
veh icles and , therefo re, cum ul ati ve discounts across vchic le var iants did not app ly.
However, the CAT II and CAT II S.A. vehi cles were differen t CAT II varian ts wi th
different stcpladder pri cing structures. The Government did not pay the 1\ T II un it
price for 295 ve hiclcs 0 1' the AT II S.A unit pri ee For 305 vehi cles. In tead, the
Government paid the cumu lative di scounted pri ce for 600 ve hicles and saved
$2. ll11ill ion.

                                IOQA QFFI€I:' 15 Uf91!l 8PI15),
                                               36                                                 b(4)
(fi'et'Jo) Table 6. Savings From Contractor Offered CUlllulative Quantity P,·iec
                                   Discounts
            umulative
            Ve hicles                      Unit Pri ce PCI'
         Ordered Berore                    Va ri ant Based
         Deli verv Order




                           F81l 8FFleh\1s WISE   Q~lllC
                                      37                                           b(4}
Conclusions

MCS to k an in novat ive and appropriate approach to awa rding contracts to all
cont l'actors whosc o ffers dCl11onstl'atcd tcchni ca l capab ility, whi ch encouraged new
vc ndors to cntcr thc markct for MRAP vchiclc prod ucti on, a key goa l 1'01' the Department.
Howcver, M           officials did not se lect an appropriatc C011lract typc and did not propcrl y
dctcrl11inc th at contract pri ccs paid for thc MRAP vehi cles werc rai l' and reasonabl e.
Though the SSA made a best va luc dec ision, thc dcc ision did not includc adeq uate pri ce
analysi s as a ractor in the decision; rurtherl11ore, thc SSA dcc ision did not rclicvc thc
contract in g o rticcr of hi s rcspons ibility for dctcrl11ining fa il' and rcasonab le priccs. We
identified signifi can t indi cators that thc contract pri ces paid may not be fa il' and
rcasonable. Spcc ifi ca lly, a vari ety of' prices were paid for a variety of vehicles, and CLiN
pri cc compa ri sons to IGCEs should havc rcsultcd inrccol11l11cndations to negoti ate with
orrerors on lower priccs. Addi ti onally, somc contractors vo luntarily offc rcd di scou nts
across vc hic lc va ri an ts pel' deli very order that we re not requircd in the ori gina l contl'act.
Whilc thi s is not cv id cncc that thc MRAP con tract pri cc wcre ovcr inn ate I, it does rai se
conccrns abo ut pri ce reasonabl cncss, cspcc ially in thi s casc wherc an inappropr iate
co ntracttypc was exccutcd, adequatc compct it io n did not ex ist, and price analys is was
not propcr ly pcrrorl11ed .



                                  FEiR ElFFIElfJ\b l;8f! 8P4bY
                                                 38                                                      b(4)
MCSC offic ials noted th at the MRA P rcquircmc nt increascd signi fi cantly al'ter thc
so licita tion was issued in November 2006. The surge in MRAP rcqu ircmcnts
ncccss itated a rev ision to the acq ui siti on strategy for procu ring an inc reascd number of
MRAP ve hi cles. Neverthcless, the so li citati on statcd, "Thc Govcl'l1 mcnt may se lect other
than the lowest pri ce, acceptab le ofTel' if it is determ ined that the supcri or capabil ity is
worth the add itional price. Ilowever, the Govel'l1mcnt wi ll not make an award at a
signifi cantly highcr pricc to achi evc only slightl y superior perfo rmance capability." The
firm- fi xed-pri ce contracts awa rded to the ni ne COlllractors for MRAP vehicle vari ed
signifi cantl y, and contracting offi cials did not perform any analysis ind ical ing that the
premi ums paid related directly to superior performance capab ility. Furthermore, MRAP
veh icles were not com merc ial veh icles and the contracting officia ls did not have cost data
or rcliab le pricing data for dcterm ining that the proposed fixed prices were fa ir an d
reaso nab le when th e contracts werc awa rded. MCSC offi cials awa rded nin e separate
contracts fo r contractor-unique techn ica l so luti ons at nine difTerent co ntractor- proposed
pri ccs. All contracts were awa rded fi rm-fi xed-price without price negoti atio n
discuss ions.

In add iti on, the co ntracting offi cer shou ld have tri cd to obtain add iti onal volume
disco unt s conesponding to the q             ordered or negotia ted fair and rca,ol'"
                         .                                               .




Du ring discuss ions with MCSC offi cials on a discuss ion drall of th is rcport, one senior
offi cial agrced that there was no assurance on whether the prices paid fa r MRAP vehicles
were fai r and reaso nab le, but that the top prio ri ty of th c source se lection was rap id
production and fi eldi ng of the MRAP ve hicles. We do not disPllt c thc urgcnt nced to gct
MRAP vchic les to thc wa rfightcr. We agree with the acqu isition st rategy to encourage
new ven dors to manufact ure MRAP vehi cles and cstab lish an industry base of vendor
with MRAP production ca pabilit ies. We support the MCSC leadership decision to
procure and evaluate as ma ny al ternative tcst vehi cles as poss ib le to maxim ize the
num ber of sa fe vehi cles that might make it through performancc tcstin g. Howevcr,
M        orficials did not take appropriate steps to ensure that the Governm ent pai d fa il' and
reasonab le pri ccs for MRAP vch iclcs. Whcn un iq ue items arc acqui red for which no
marketplace ex ists to rcgulate pricing, thc contracting officcr shoulcl not dcpend on the
fac t that thcre are mU ltip le off'e rors prop sing uniquely di ffere nt items to enSlll'e a fa ir and
reasonab le pri ce. The contracting office r was responsible fo r ensuring that the
Govel'l1 ment paid fair and rcaso nab lc pri ccs for the MRA P procurement, and MCSC
contracting offi cial s fa iled to ensure that the prices pa id for MRAP vehicles werc rail' and
rcasonable.




                                  fElft   ElPPI@ti\15IiB~     ElPi15Y
                                                  39                                                      b(4)
Client Comments on the Finding and Our Response

The Ass isull1t Secretary of the Navy (Resea rch, Devc lopment, and Acqu isiti on) and the
  ommandcr, Marine Corps Systcms Command co mmcnted on statements in Find ing C of
a draft of thi s report. The Office of Genera l Co unsel, DoD In spector General (lG) ,
reviewed the comment s and recomme nded that the audit tea m so lic it comm ents
concerning the fa ir and reasonable con tract pri ce determinati on from the Ortiee of
Defense Proc urement Acq ui sit ion Po li cy (D PAP), Ortice of the Under Secretary of
De fense for Acqu isition, Technology, and L gist ics [OUSD(AT& L)], On Nove mber 2 1,
2008, the Ass istan t Inspcc tor Gencral, Acqui sition and Contra ct Managcment requested
that the Director, DI'AP review and comment on Finding C of the draft report. On
Deccmber 12, 2008, the Director, DI AI' prov ided comments on Finding C of the draft
report. See Appcndi x D for compl ete text of thc Ass istant Inspector Gcncral, Acq ui siti on
and Contract Management rcquest. See the Client Comments sect ion orthe report fo r thc
co mplete tex t of the DPA P, OUSD(A T&1.); A sistant Secrctary of the Navy (Research,
Dcvc lopmcnt, and Acqui siti on); and Marin e Corps Systems Co mmand (MCSC)
comments,


Assistant Secretary of the Navy (Research, Development, and
Acquisition) and Marine Corps Systems Command Comments

The Ass istant ecretary of th c Navy (Research, Devc lopmcnt, and Acq ui sitio n)
rASN(RDA)] respond ed to the draft report and agreed with comments from th e
Commander, MCSC. The ASN(RDA) pecifica lly disagreed with the find in g of
in adcq uatc price cOml)etiti on for thc MRAP contracts. Thc ASN(RDA) statcd that
adeq uate price co mpetition occurrcdto ensure fai r and reasonab lc pricing of proposed
MRA P vehi cles on the basis thlll the Government rcceived 10 proposa ls, mOI'c than the
2 req uired by the FAR for adeq uatc p"ice co mpct ition to havc occurred. Thc ASN(RDA)
also stated that "neither statute nor regulation states that adequate price competition exists
only if th ere is more than onc offeror fo r thc exact same product 01" service ." The
ASN(RDA) also stated that pri ce was a factor in the so liei tali on and was rev iewed by the
contracting offi cer.

The Commander, MCSC responded to the drall repo rt and took issuc wit h severa l poin ls
in the fi nding. The commander stated th at the ir strategy regardin g the adeq uacy of price
competiti on and fail' and reasonable pri cin g was supportable and appropri ate for the
MRAP program . The co mm an der stated thal "the ru ll and open eom pctiti on co nducted
by MCSC in which ten proposa ls were rece ived prov ided the contracling offi cer wi th a
rcasonab lc and rat ional bas is fo r concluding that adequate pri ce compctiti on ex isted."
The co mm ander stated that the FAR prov ides thal adeq uate price co mpctitio n may cxist
when an orfer is rece ived with the expectati on of co mpetilion and the offeror bel ieved
that more than one offeror WllS eapab lc of submitting a mcaningfu l orfer. The
comma nder enco uraged the inpul or thc DoD Office of Gcncral Co unsel on thi s maltcr.



                                             40 

The comma nder ack now ledged that the usc of pr ior so le-source pricing data from the
JERRY proc urement co uld not be properl y considered an ind ependent cost estimate. The
commander stated that despi te the differing prices from various ofl'erors, MCSC is


li sts the price of the ini tia l test veh icles as. million when it was actuall y
                                                                                   I'
confi dent that the co mpetit ive pressures orthe market place provided the Government
with reaso nab le pricing. The commander _ noted that the draft audit rep          correctly
                                                                                   11ill io n.
The comma nder furth er stated that the initial compet itive market place as we as the
continuing compet iti on n'o m the multi-award strategy has allowed th e Gove rn me nt to
obtain MRAP vehi cles at reasonab le prices.

The co mmander stated that with the contractin g orlicer's determination that the rcceipt of
 10 proposa ls constituted adequate price competi tion, the Government was prohi bited
from im plementin g the Truth In Negotiati ons Act and req uiring cost 0 1' pricing data from
the offe rors. Fu rther, he stated that the second except ion to the Truth In Negot iations Act
woul d have appl ied to many of the MRAP subco ntractors who were supp lying
commercia l items to the MRAI' co ntractors.

The comm ander noted that th e contractin g officer reaso nab ly dete rmin ed th at a fi xed­
price contract was appropriate for the MRAI' veh icle procurement. He stated that using a
cost type contract woul d have had the effcct of limitin g c mpeti




                                               may have becn
              II on. The com l      stated that the contract in g ofti cer was ab le to obtai n
sa,·i Ill! S of approximately $ 127 million by procuri ng add itional CAT I vehicles at base
yea r pri ces.


Our Response

The essence of the Navy and the Marine Corps posi tions is summ ed up in one sentence o r
the ASN comments: "Neither statute nor regulation states that adeq uate price
competition ex ists on ly if there is more than one offel'Or for thc exact samc prod uct 0 1'
service." Whil e it is true that there could be adeq uate pri ce competiti on where there is
only one offeror or where the product offered is not exactly the sa me, the sentence leaves
  ut other factors that mll st be considered. First, in order to ensure competition is based
on price, the req uirement mu st be detined app ropriately. Ifthc itell1 is com ll1ercia l, thi s is
not normall y a problem. Whil e the MCS C offi cials treated these vehi cles as il'they were
co mill erc ial or nondeve lopl1l ental , the rea lity was that a wide variety of technical
approaches we re permitted that wou ld be assoc iated with a deve lopmental effo rt. We ,1 re
not saying th at the products had to be exactly the same , j ust that there had to be a


                                                41
                                                                                                       b(4)
mechani sm 1'01' determinin g whether each ofreror's price was ra il' and reasona ble. Where
tile items orfered are di ssim il ar, thi s determinati on is made more dirficult, and there
needs to be consid erati on o f how to obtain use ru l pri ce data when writing the rcqui rement
(for examp le, define the requirement as a commercial item with modifi cati ons and then
get cost or pri ce data fo r the modifi cHt ions only); ot herwi se, obtaining cost or pricing data
will be necessa ry.

We contend that there was no effecti ve pri ec competiti on. Thc "c mpetit or " prod uced
different vehi cles, mak ing a pri ce compari so n dif'fi cuit (thi s was not attempted, and we
did not say it should have been attempted). In addition, the prior contrac ting effort was a
so le-so urce Conlract with in adcquate pricing data 1'0 1' that l)rod uct, which itse lr was a
different veh icle than those produced by the other contractors. .iust ha vin g a num ber or
contract rs des ignin g techn ica l so luti ons does not mean th at there is pri ce competit ion.
In order to rely on the results or th e competition to determine a Fa ir and reasonable pricc,
the co mpetitors should be offering essenti ally the same product. Because the vehi cles
were di ss imil ar, there should also be a marketplace where the contracting orri cer can
judge that competi tion has succeeded. Without !In effecti ve co mm ercial marketplacc,
how can the contracting orricer determin c whether a fair and reasonable pri ce was
achieved? We have out lin ed th e mechani sms for doing so in OUI' report.

The command er stated that despite the dirfering prices rrom vari ous orfe rors, MCSC is
confident that the co mpetiti ve pressures of the marketplace prov ided the Governll1ent
with reasonable pricing. The co mm ander also stated that the initi al competiti ve market
place as we ll as the co ntil1lting competiti on froll1 the ll1ulti-award slrategy has all owed the
Go vernment to obtain MRAP vehicles at reasonable prices. However, th ere is no
base line 0 1' evidence to support the va lid ity of these statcments. Wh iIe the range or prices
that were awarded dinered less than those th at were orig inally offered, th is i not
ev idence of competitive pri cing 1'01' many reasons, th e most important bein g that the
events that clim inated thc highcsi pri ce vendor from receiving deli very orders lVere
unrelated to ei tiler price or any marketpl ace.

The command cr also noted thai the rcpo rt incorrectly li sts the price oCthe initial test
vehic les as $88 million when it was actually $23 mill ion. Thi s inrormation is present d
in the Backgro und secti on or the drart report under the heading " Procurement Hi story"
and refers to thc tOlal cost or the delivery orders 1'01' the 36 tcst vehicles, to include
vehicle costs, serv ices, and suppli es. Wc va li dated that the $88 milli on was for the test
ve hicles and for serv ices und supplies spec ifi cally required 1'0 1' those vehi clcs and related
testin g. To clarify, we rcv ised the sta temcnt, stating that "the total cost of the 36 test
vehi cles, including cost 1'01' services and Sllpp lies required for testing, was $88 milli on."

The ASN(ROA) stated that pri ce was a ractor in the so li citati on and was rev iewed by the
contracting ofl'i eer. Howeve r, the Request for Proposal clearl y states thai "Ihe non-price
ractors, co llective ly, are or signifi c3ntly greater importance than pricc." Manage ment 's
pos iti on is that adequate pri ce competiti on occurred, yet potential ol'rerors were notifi ed
in writing (vi a the Request For Proposals) that price was the least important factor in a



                                                42 

competitio n for which there WHS no marketplace or co mmercial data. In additi on, we
found no evidence that the contracting officer performcd any pri ce rev iew other than the
IOCE compari so n that was in adcquate and poorly exccuted. I'urlhcrmore, the FAR
c lea rly states that for the contract price to be based on adequa te price competition, award
wi ll be made to the offeror on the basis of best val ue where pri ce is a substa ntial fH ctor in
sourcc se lecti on. Thc sourcc sc lecti on orficial documentcd the dec ision to award
co ntracts to nine oHerars on the basis of best va lue, but pri ce was not a substanti al fa ctor
in the MRAP contractor so urce se lect ion. Pri cc was a non-rated factor in the so licitation;
as a result, proposed pri ces wcre not adeCluatcly cva luated (pri ces co ul d nOI be evaluated
based on the dec ision to use a firm -fixed-price con tract for a procurement that had no
marketp lace data or cost or pricing da ta to support proposed prices). Awards we re made
to nine orrerors at the pri ces proposed by th e offerors without any pri ce negot iation
discuss ions (even to the cont ractor identi tied by th e PET as ha ving a pri ce so hi gh as to
be not fair and rcaso nab lc). The Govcrn mcnt agrecd to pay onc contractor $3 06,000 fo r a
CA T I vehic lc (t ier I price) and another contractor $ 1. I million for a CAT I vehic le (t ier
 I pri ce); eontmeting officia ls had not performed any analys is to determine whether the
higher pri ced vehi elcs provided additional va luc. In fact , they could not perfo rm the
analys is becausc they did not have the data to do so.

Thc comm andc r claimcd approximate ly $ 127 milli on in savi ngs rclatedto MCSC' s
procul'ement of add iti onal CAT I vehi cles at base yea r prices. However, the additio nal
vehi cles wcre bought using un cxerciscd opt ions. The rationale for using unexecuted
option quantiti es is ill ega l. No contract option quantiti es may be uscd wherc thc option
ha not been exerc ised. If the co ntract had been properly modifi ed to allow for an
increase in co ntract maximums, the contracting offi cer may have been able to obtain a
di scount on the base yea r step ladder pricing based on economi es of sca le. Like the
statement tha t pricing or the veh icles was fair and ren anab le, there is no rati onal basis
prov ided to support cost sav ings by impropcrly "borrowing" quantiti es from an
unexecuted opti on. Thi s was sim pl y a sco pe change that was im properly hand led.

In hi s comments, thc com mander req uests thatthc DoD 10 seck the lega l opi ni on of the
DoD General Co un se l. We disagree that thi s is a legal issue needing interpretat ion.
There i no dispute ove r the appli cable sec ti ons orthe FAR. We do beli eve, however,
that DoD offi cials responsible for contracting poli cy should be madc aware ofthc issues.
Co nsequ entl y, we requested a poli cy dec ision from the Office of the Under Secretary of'
Defensc for Acq ui sit io n, Technology, and Logistics.




                                               43 

Defense Procurement Acquisition Policy, Office of the Under
Secretary of Defense for Acquisition, Technology, and Logistics
Comments

Thc Dircctor, DPA I" OUSD(AT&L) commen ted on statements in Find ing of the draft
report. He agrecd with our conclusio n that MCS oFfi cia ls did not properly determine
that contract prices were fail' and reasonab le when they awarded ni ne fi rm-fix ed-price,
IDIQ co ntracts. He stated that the determ ination of whether con tract prices arc fail' ancl
reasonable shou ld be made by the contracting orficer based on analysis of the proposa ls
subm illed. He stated that the contractin g ornee r must conduct a cost/techni ca l trade-o Ff
analysis to dctermi ne thc best val ue orfer(s) as req uired by the FAR. Further, he stated
that the contracting orncer ca nnot assume that prices arc Fa il' and reasonab le simply
because mul tip le ofFers were received. The director did not agrce that the use of Iirm­
Fi xed-price contracts was inappropri ate. He stated that the use of Iinn -Fixed-pri ce
co ntracts would be appropriate ifprope r cost and/o r price analys is was conduc ted to
de termine ('IiI' and reasonab le pricing. In addi ti on, the director agreed that the M SC
co ntract ing ofFicials shoul d have so ught discounts when the quantiti es proc ured were in
excess of the ann ual quant ity mmtimum in the contract. He stated that additi onal traini ng
and poli cy gui da nce is necessary to add ress these issues.


Our Response

The report stated that Iinn-Fixed-pr ice contracts werc not approp ri ate For the MRAP
vehi cle procurement because MRAP veh icles were not co mmcrcial itcms, and
co ntracting ofFi cials did not have cost data or reliable pri cing data fo r determinin g
whether the proposed lixed pri ces were fa ir and reaso nab le when they awarded the
co ntracts. In add ition, as discussed in the Fi ndi ng C of the report, the pri ce analysis
performed by MCSC ofFi cia ls was not supported by va li d pri cing data, and the analys is
pe rformed by contracti ng official s was inacieqLla te for dete rmin ing whether proposed
prices were fair and reasonab le. We wo uld not have chall enged the awa rd of fi rm-fi xcd­
price contracts for the MRA P procurement ifproper pri ce analys is had been perfo rmed to
determi ne fa ir and reasonab le contract pri ces.




                                             44 

Recommendations, Client Comments, and Our
Response

Wc rccommend that th e Commandcr, Marinc CO I'PS Systcms Commlllid dircct thc
Ass istant C ommand cl' for C ontracts to:

1. E nsnre that future procuremcnts for Minc Rcsistant Amb ush I'rotccted vchiclcs
lIrc propcrly competed or justificd ou a so lc-source basis.

Co nlluandcl', Mal'inc CO I'PS Systems Co mm and Co mm cnts
T he Commander, Marine Corps Systems Command ag reed, stating that the Marine Corps
Systems Command has already incorporated thi s recommendati on into its acqui siti on
strategies for the MRAP II and sole-so urce award of M RA P CAT III procuremcnts. He
a lso stated that priccs for each part of the competi tion w ill be negotiated separately.

Our Rcsponse
The comm ents we re respon sive, and no further commcnts are required .

2. E mphasizc to contl'acting officers th e importance of making pl'icc reasonablcncss
determinations ami ensuring cost 01' pricing data lIrc requcstcd as rcquit'cd by
Fcdcral Acquisition Regulation I'art 15, "Contracting by Nego tintion ," for futurc
M in e Rcsistant Ambush ]'l'Otcctcd vchiclc procurem ents.

Co mmandcr, Mal'inc Co rps Systcms Co mmand Co mm ents
T he Co mm ander, Marine Corps Systems Com mand agreed, stating that the Ass istant
Commandcr 1'01' Contracts has commun ic(l\ed the importance or this issue to the Contracts
Directorate. He also stated that they will compl ete a tho rough, fair, and reasonable pri ce
detc rminati on fo r the MRAP (A ll Terrain) procurement.

Our Rcsponse
The comm ents we re respo nsivc, and no furthcr commcnts are requircd.

3. Dircct-co ntracting ofl1cials to obtain training on llppl'Opriatc sclection of contrnct
typcs bascd on th e ris l{s associated with procurement requirelllents.

Commandcr, Marinc Corps Systcms C Olllmand C ommcnts
The Commander, Ma rine Corr s Systems Command agreed , stating that tlte Ass istant
Commander 1'01' Contrac ts has communi cated thc importance or th is issue to the Contracts
Dircctorate. He a lso stated that they have asked the De fen se Acqui si tio n Univcrs ity to
prepare a senior- leve l case study oft hc MRAP acq ui sition program to discuss altcrnatives
to th e contracting strategy previ ous ly fol lowed.




                                             45 

Our n csponsc
T he comm ents were responsive, and no rurther comments arc I'cquired,

4, ncvicw and determine the reasonableness of contractor prices to include
obtaining cost OJ' pricing data when necessaJ'Y and I'equcst that thc Defensc Contl'lIet
A ndit Agcney ,'evicw any proposals before awarding futllre Min e (les istant Ambu sh
P rotectcd vehicle dclivel'y orders,

Commandcl', Mal'inc Corps Systems Commllnd Comments
The Commander, Marine Corp, Systems Co mmand agreed, stat ing that the Ass istant
Commander ror Contracts has communi cated the importancc o r thi s issue to the Contracts
Directorate, He al so stated that they arc bu il din g a rramework for the pri ce
reasonablcncs determina tion that will be uscd roO' the MRAP (A ll Terrain) procurement.

Our nesponsc
The comm ents were responsivc, and no rurther comlllents arc requ ired,

5, E nsure that future competitive lll'OCllI'cmc nts con sider cont"'1ct p"ice as a factor
10,' dete,'mining best value, as ,'equil'ed by Federal Acquisition ncgul a tion Part IS,

Commander, Marine Corps Systems Com maud Comm cnts
T he ommandcr, Marine Corps Systems Comma nd agreed, stating that the Ass istant
Commandcr 1'0 1' Contracts has commun icated the im portance orthi s issue to the Contracts
Directoratc, lie a l 0 stated that they will app ropriately weigh pri ce and survi vabi li ty,
mobil ity, mane uverability, producti on capability, and other factors within the context o r
the urgent need fo r the MRAP (All Terrain) proe uremcnt.

Our (lcs ponse
T he comments were res) onsive, and no furth er eommcnts are required,

G. Establis h procedures to take appropriate contl'net action when pl'ocul'ement
qUlII,tities exceed the ma ximum quantity nllowed in the contract and ensul'c
contracting officel's negotiate discounts 1'01' the corresponding quantity,

Commandcl', Mnl'inc Corps Systems C Olllnullld Comments
T he ommander, Marinc Corps Systems Co mmand agreed , stati ng that the Ass istan t
Co mmander for Contracts has communi eatcd the im portan ce of thi s issue to the ontracts
Directorate, He a lso statcd that they w ill attempt to build suffi cient ncx ibili ty into thc
production contract to dca l with both planned and potential quant ities ,

Our Res ponse
The comments were responsivc, and no rurther comments are requi red,




                                              46 

7. Esta blis h pl'Occdurcs that address sccld ng cumulative qunntity discounts ncross
dclivery orders and regardless ofvchiclc va riants ordcred in future contrnct(s) fOI'
M ine Rcsistaut Ambush Protccted vehicl cs.

Commandcr, M>lJ'in c Co rps Systcms Command Commcnts
The ommander, Mari ne CoqJS Systems Command agrccd , stating that the Assistant
Command er 1'01' Contracts has com muni cated thc importance of thi s issue to thc Contracts
Dircctorate. He al so stated that they will scek both stcp and cumul ati ve quantity
di sco unts as pan of the Requcst fbI' Proposa ls for the MI AI' (A ll Tcrrain) proc urcmcn t.

Our Responsc
T he comments were responsive, and no further comments me requircd.

8. Opcn disc ussions with Force I'rotcction Industry, Inc., to negotiate disconnts for
the quantitics of M inc Resistant Ambus h ]'rotcctcd vchicles ordcrcd in cxccss of
contract ma ximum and discounts based 011 cumulative quantities of vehicles
ordered.

Command cr, Marinc Co rps Systems Command Com mcnts
Th e Co mmander, Ma rine Corps Systcms ommand agreed, stati ng that the MRAP
cont racting o ffi cer has alrcady contacted FP II on thi s mattcr.

Our Response
The comments were rcsponsive, and no furth er comments arc req uircd.

9. Open discnssions with Nav istar, form erly Internutional Military lInd
Gove rnm cnt, LLC, to negotintc disco unts tiu' thc quantitics of M ine Rcsistant
Ambus h Protectcd vchicles ordcrcd in exccss or contract maximum .

Co mmander, Ma rine Corps Systems C ommand Comlllents
T he Co mmander, Marine Corps Systems Command agreed, stating that the MRAP
contracting o ffi cer has already co ntactcd IMG on th is matter.

O UI' Response
The c mments were rcsponsivc, and no r'urthcr commcnts are requircd.




                                             47 

48 

Appendix A. Scope and Methodology
We condu cted this I er fOl'lnance aLlClit from July 200 7 through July 2008 in llccorda nce
with gencrally acccpted govcrnmcnt aud it ing standards. Those standards requirc that wc
plan and perform the aud it to obtain sufficie nt, appropriate ev idenee to prov ide a
rcasonab lc basis for ou,' find ings and conclusions based on our audit objecti ves. Wc
believe that the cv idc nce obtaincd prov idcs a rcasonHble basis for our fi ndings and
conclusions based on our audit o~i ectiv es.

We cva luated whcthcr Mari ne Corps Systcms omm and uscd appropriate co ntractin g
meth ods to procure MI AI' vehi clcs. We rcv icwcd act ions taken by DoD to acce lerate
delivcry of'vehicles. We rev iewed Army and Marine Corps requircmcnts for J-1 MMWV
and MRAP vchicles.

Wc co llected, reviewed, and analyzed docum ents dated May 2006 through Junc 2008.
We reviewed acq uisition documents for a so le-source cOlllract, awa rded Novcmber 9.
2006, to Forcc Protection Indu stries, Ine. , and nine MRAP vehicle cont racts, awarded
January 25, 2007, to thc follow ing contractors :

   •   Force Protecti on Indu stri cs, Inc.;
   •   Internal ional Military and GoVe 1'11111ent, LLC;
   •   Armo r Ii oidings, Inc.;
   •   13A E Syste111s Land and Armaments, LP;
   •   General Dyna111 ics La nd Systcms-Canada;
   •   Oshkosh Truck orporation;
   •   Protected Vehicles. Inc.;
   •   Genera l Purpose Vehi clcs; and
   •   Tcxtron Marine and Land SySlC111S.

Wc rcv iewcd the so le-so urcc award juslifi cati on, rcqucsts for proposal s, so licitati ons,
bl,sincss Ciea nl11CC mC111ora ndums, and source select ion eva luati on rcports. Wc a lso
reviewed pricc eva luation team rcpol'ls, delive ry documcnts for MRAP vchi clcs includ ing
rece iving reports, delivcry correspondencc, Hnd deli vcry schcd ulcs to determin e
tim cli ncss ofvchi clc dcli vc rics to end users. Wc al so rev iewcd opcrat ional nccds
  tatcments, urge nt uni versa l nccds statcment s, and joint urgcnt nceds statemcnts.

Wc intcrvicwed contracting and program offi ee personnel at TACOM Life yc lc
Ma nagement Command and Marinc Corps Systems ommHnd. We intcrviewed thc Icad
procurcment contracting office,' and other cont racting pcrsonnel responsibl e for MRAP
co ntracts. Wc also intcrvi ewed Marine Corp Systems Command MRAP program offi ce
personnel including the programmanagcr for thc MRAP program . We interviewcd
Defense ontract Managcmcnt Agency (DCMA) perso nnel inc luding adm inistrative
contract ing offi ccrs, industrial special ists, and qua lity assurance rcprcsentat ivcs at


                                              49 

D MA-Ca nada (London); DCMA-A tl anta. South Caro lina Operations Team;
DCMA-Chicago; and DCMA -Yo rk. We also interviewed personnel from the Offices of
the Under Secreta ry of Defen se ror Acqui siti on, Technology, and Logisti cs; the Army
Deputy of Staff for Operat ions and Plans, G-3/517; the Assistant Secretary of the Army
for Acqui siti on, Logistics, and Techno logy; and the Marine Corps Combat Developm ent
Command to identify program backgrou nd and vehi cle requirements.

We reviewed app licab le contract in g regul ati ons including the Federal Acqui siti on
Regulation, the Derense Federal Acquis iti on Regulat ion Supplement, Publi c Law 9B-3 69,
10 U.S. . 2306a, and 10 U.S.C. 2400.


Use of Computer-Processed Data

We relied on data from the Electroni c Documcnt Acces lind the Wide Arca WorkOow
systcms. The Electronic Doc ument Access and Wide Area WorkOow sy tems arc onl ine
document acccss systems. We did not assess the re li abi lity orthe systems because we
limited our use of the data to determine co ntract prices ~lIld delivery dates. Howeve r, not
assessi ng the re li abi lity of the sys tems did not materially arrectthe re ults of the audit.


Use of Technical Assistance

We obta ined assi tance from the Tech ni ca l Assessment Directorate of In vestigat ive
Poli cy and Overs ight , Department of Defense Office of Inspector Genera l to rev iew and
eval uate pr ice reasonableness determination related documentat ion.


Prior Coverage

During the last 5 years, the GAO, the Departm ent of Defense IG, and the Army Audit
Age ncy (AAA) have issued eight reports di scll ssin g armored vehi cles. Unrestri cted GAO
reports ca n be accessed over the Internet at hllp:llwww.gao.gov . Unrestri cted DoD IG
reports can be accessed at hllp:l/wlI'w.dodi g.mi llaudit/repo rts. Unrestri cted AAA reports
can be accessed over at hllps:lllI'ww.aaa.army.m illreporls.htm .


GAO
GAO Report No. GAO-OB-B84R, "Rapid Acqui sition of Mine Resistant Ambush
Protected Vehi cles," Jul y 2008

GAO Report No. GAO-08-467S r , "Assessments of Se lected Weapon Progra ms,"
March 2008



                                               50
GAO Report No. GAO-06-274, "Lac k of a Synchronized Approach betwccn thc Marine
Corps and Army Affected thc Timely Production and Insta llati on of Ma rine Corps Truck
Armor," June 2006

GAO Report No. GAO-06-160, "Scvcra l ractors Lim ited the Production and Install at ion
of Arl11YTruck Armor during Current Wartime Opcrat ions," March 2006

GAO Report No. GAO-05-275, "Acti ons Ncedcd to Improve the Avai lab il ity of !'itica l
Itcms during Current and Fu turc Opera tions," April 2005


DoDIG
000 IG Report No . D-2009-030, "Marinc orps Imp lcmcntati on of the Urgent Un iversal
Nccds Proccss for Mine Res istant Ambush Protccted Vehiclcs;' Dccembcr 8, 2008

DoD IG Report No. D-2007-1 07, "Procurcmcnt Poli cy for Armorcd Vehi cles,"
Junc 27, 2007

000 IG Repo rt No. D-2007-049, "Eq ui pmcnt SWtus of Dep loycd Forces Within the U.S.
Central Command," JanuHl'Y 25, 2007

Army
AAA Report No. A-2007-234-ALM. "Tacti ca l Whcc led Vehi clc Stratcgy,"
Scptcmber 26, 2007




                                          51 

52 

Append ix B. Discrepancies Between
Proposals and the IGeE
The fo ll owing tables illustrate the variances betwecn proposcd pri ces for CAT I and
CAT I I vehi cles and the corresponding IGCEs for IMG and BAE. Dcfi nitions for somc
of the nonvehie lc LlNs are as follows: 0023AF Engineering Change Proposa l. 0023AI<.
Safety Assessment Rcport/Update, 0023111' Commcrcial Techni ca l Manual, and
0030 Log istics Sta rt of Work Meeting.

We ca lculated the following di scrcpancies bctwcen the AT I and AT II proposa ls from
BAE and IMG and the IGCE.
               ~9W9}   Table B-1.
                          the




                            VQIl QVVI~I;' Is ~Sl!l QPIIsV
                                         53
                                                                                         b(4 )
F8R 8F)'f@I ,'m !!lSI! 8NbY
          54
                              b(4 )
(f'8"'8l Table B-3.    CAT I CLrNs Thnt Exceeded
           the IGCE   at Lenst 40 Pet'cent




          f8R 8ffl@IAI!s 198E 8P1I!sY
                    55 

                                                   b(4) 

Felt 8FFfElIA"
          56
                 "8" eN"Y
                            b(4)
Appendix C. List of Acronyms and
   Abbreviations
AAA          Army Audi t Agency
AHI          Armor Holdi ngs, Inc.
ASN(RDA)     Assistant Secretary orlhe Navy (Resea rch, Deve lopment , and
             Acqui sition)
BA S         BAE Syste ms La nd and Armamcnts, LP
  AT         Category
CLiN         Contract Line Item Number
DCAA         Dcfcnsc Contract Audit Agcncy
DCMA         Defense Contract Management Age ncy
DPAP         Omce of Dcfense Procurement Acq ui siti on Poli cy
FAR          Federa l Acquis iti on Rcgulat ion
rp il        Force Protect ion Industr ies, Inc.
GAO          Govern ment Acco un tab ility Office
GDLS-C       Genera l Dynam ics Land Systcms - Ca nada
GPV          General Pu rpo e Vehicles
HMMW V       Hi gh Mobi lity Multipurpose Whceled Veh icle
ID IQ        I ndefin ite-Delivery, Inclen nite-Q uantity
lED          Improvi sed Exp los ive Dev ice
IG           Inspector General
IGCE         Independ ent Government Cost Estim ate
IMG          Internationa l Mil itary and overnment, LLC
JERRV        .Ioi nt Ex plos ive Ordnance Disposal Rapid Response Vehi cle
JPO          Joi nt PI' gram Ortice
.IR O        Joi nt Requ irements Oversight Counci l
.IUONS       Joi nt Universa l Operationa l Needs Statements
LR IP        Low-Rate Ini tial Prod ucti on
MCCD         Mar in e Corps Combat Deve lopment ommand
MCSC         Mar in e Corps Systems ommand
MNF-W        Mult i-Nat ional Forces-West
MRAP         Mi ne Res istant Ambush Protected
OTC          Osh kosh Truck Corporat ion
OUSD(AT&L)   Office of' the Under Secretary of Defense for Acq ui siti on,
             Technology, and Logistics
PET          Price Eva luati on Team
PV I         Protcc ted Veh icles, In c.
SA           South African
SSA          Sou rce Selection Authority
SOCOM        Spec ial Operat ions ommand
UA H         Up-Armored High Mob ility Mu lt ipurpose Wheel ed Vehicle
U.S.C.       Un ited Sta tes Code


                                  57
58 

Appendix D. Memorandum From the Office of Inspector
General, DoD Requesting Comments From the Office of
the Under Secretary of Defense for Acquisition,
Technology, and Logistics


                                          INSPECTOR GENERAL 

                                        DEPARTMENT OF DEFENSE 

                                           400 AAMY NAVY DRIVE 

                                      ARLINGTON, VIROINIA 22202-4104 


                                                                                      NOV 2 1 1008


       M EMORA NDUM fOR DIRECTOR , DEFENSE I'ROCUREMENT AND
                          ACQUISITION I'OLI CY
                        DIRECTOR , PORTFOLIO SYSTEMS ACQUISITION

       SUBJECT: 	DoDiC Aud it of tile Procurement und D~ li ver)' of Joint Service Annor
                 Protected Vchi c l c~ (Project No. D200?· IJOOOCK-023 0)


             We issued the subj ect drun report on Septemi>cr 24, 2008, nlld received official
       management commcnlS from the Assistant Secretary oflhe Navy (Resetlrch,
       DcvclopmcnI, (lnd AC<IUisili on) and from the Conmllmdcr, Marine Corps Systems
       Comm and, on November 13, 2008.

                 Finding C orllle dmfl report, ""ricc Reasonableness Determinotion," discusses
       Ollr conclusion thut Murine Corps Systcm ~ Command offici"ls did not prol>ecly dclcml inc
       th:lt contract prices were rair nnd rcnsonuble when they nwnrded nine finn· fi xed price
       1D1Q COnl rttC1$ in January 2007 ror "arious MIV'\P vchicles, Contrnry to the report
       finding, Navy ami Murine Corps oOicials believe t1mtlldequulC: price (;olllpctition
       occurred and that the prices paid by the Govenunen! for the MRAI' procurement were
       flli r nnd reusonable.

                   While we dbmgrce with Nnvy nnd Morine Corps officials on the primary iss ue of
       Il rllic lind reasonable price as it rcintcs to the MRAP vchicle procun:nn:nl , it is mort
       problcllIutic for fulure vchicle proc urement! and maintenance, MRAP program officials
       have no basis for en suring thatthcy arc gCllin&f.lir nnd rc~ onab l e prices on their future
       MltAI) vchicle requirements nnd using, the previous contmcl prices ror "n"lysis would be
       Incuningl!:s!;. Nevertheless, the Commnnder. Marine Corps Systems Coml11Wld. cleprly
       slated in his comments his ["tcntlo usc II fi rm·fix(,.'ti I)ricc contract Iype for future MRAP
       vehicl e procurements,

              Ollr prim~ ry issue is Ihpt thcrc wns competition on Ihe MRAP vehicle
       requirement, but the competition provided 110 basis for dctemlining a fuir lind reus()lInblc
       price. Contrtlcling laws and regulations assume thnt contracting oflicia ls nte Iry in ~ to
       maximize price competition, mther t1mlllooking for ways lIot to do SQ,

               We respectrully rcqucsltlmt your offi ces rcview these issues lint! respond to our
       dru n repon. considcrilli:l 1hc foll owing questions: When aC{luirin&items thnt nrc
       dissimilur IlJId no comme rcial marketpitlce ex ists, may a conlmcting oOiccr nssume Ih31
       price competition (lnd n fnir lind re(lsonnble price nrc !\chic \'cd where multiple orrers cm.:
       rece ived" Whnl sleps an: rC<luircd to ensure n fll if nncl rensonnblc price in such cuses? Ii'




                                                                    59 

conlrllclin&officers shou ld nOl ll'lSUnlC price compet iti on is udcqua\c to dctcnninc n fuiT
li nd rc.l..Sollnblc: price in such C:'l$CS, we recolllmend cmphnsi1.ing Ihol price competition is
(l desired gonl of ODD ncquisiliol15. In addition. we recommend considering whether

Imlning or add it ional policy is required in thi s arcn.




                        ~/rP.~
                                      Richord D. Jollifle 

                                I\ssist81l1lnspcCIOf General 

                            Acquisition Md Contract Mt\ni\gcmcnt 





                                                                                                     b(6)
                                                                60
Navy Comments 





                                       n l E A S SI STA NT 5 EC RIITA RY OFTH E NA.VY
                                           1, .CSCAlc.'":" IXVl:L( +- Io' l::'lT A1l1l " COl..j~fll >/1)




                                                          NOV 1 0 2008
       MEM ORA NDl 1M FOR D EPA RT MENT OF DEI'ENSE A SSISTANT INSPECTOIl
                             GENERA l. FOR I\ UD ITING

       SU BJECT: 	 DC)l:trllll"'n l (If IJereIN.' In ' l)cclor General (0\1010) Dr:) fl ncpOrt 0 2007­
                         I)OnOC K ·()2:lU,(KK I. "PmCUrl.!lIll.' 1I1 :111<1 Delivery of Jllint Ser\'ice Armor
                         Pmtc..:h.',1 Vc hicll" "

                   Thl.! f)cpanl11Cnl ur the N:I"Y (DON I h a~ rcykwcd Ihe Mlhjcl'1 I.)n Dl Ci Onl fl
       I~C Il( II't.
               W(' upprccialc Ihe Ihumughnes:.: mId ynur Ii mJin!!s Ihal ' "pp0l1 :u':lioll "; taken
       hy the DcI':U1 IHCIIIIIJ rll'cclcmtc dd i\'cry of li fe·suviuS Mille R c~ i s ln nl Amhu.;h
       PrOlC(.'lcd (MRA P) \'(' h i c l c~ hl ollr Soldi er:. il nd Marines. All nchcd . arc the
       OCparl ll1Cnl's ~ 1X'c i fic COm m,,'IlI :. on the 1i »1 uf !JoDIG rccollllllcndmion" whk h wm;
       prC ptll'l~J
                 hy the COll1l lltuuk r. M nri lle COIl'S 5),1>1(' 1111> COlllmand
       (~ I A R C O R SYS CO~'1 ) , W hi le   I co ncur wi ll! Ihe CO ll1l mllll l ('r"~ Cll m mC rll ~ , I would
      nb.u like 10 l'sptlnd upun one p:trli<." ular DnlJl G fi nd ing, Ilit llldy the f1 n(/i ll ~ thai tltl'!"!
      wa, il la~kqll a t l! pri Cl' compc titiOIl in r": 1<o rllll '\~ In Ihe original lttdclin ilt.:
      Od h'cr),/ lnticlin itc Quanti ty ( 1D1Q ) solici l:tli tln for MRAP,,;,

                  Cun lr,lry 10 Ih..: DIID lfi 1if1( l itt ~ . the DO N hc lic \'cs udt.:(IUllh! PI'if.:\' eompc liliull
       occll rred hI ell , un,' fair ami r~ a!'\ o n a h l ~ prie inl! Ill' t>.'tRAP!'\ prl) pll~C' d in re' lx1n,,, It) Ihe
       1>ulici lal itm , A.. dcscr ihcd in l1l o r~' dCluil in Ihe MARCOHSYSCOfl.'f t.:(ll11nh.' n t ~ . Ihe
       gc}\',,' rnmCnl n:cdvcd a IOIll I (lr 1-.: 11 prnlm~: tk CllII .. hlcr:t hly IlIllre Ih alllhc IwO rcclui rl'd
       hy Ihe F("dcml ;-\ ~'( I ubiti o ll R-.:guIrH i()1I ( FAR) 15..10.\· 1(c )( I )t i) for :tdl'CIU:UC priet'
      coll1fX' lilioll 10 h:t\'c occurreJ, Award W: I ~ lI i1i lllalel), madl' tel nille (If Ihc Il' n Hffc rt'lr:-.
      :lhht1ugh Uelnl.' urlhe ()fferOflo I..Ul' W whcl ha MJ\R CO RSYS O~ I Wl lu kl ll1:Jl..c
      IIlU ll lplc nW;lrd1<o, or Ihal ;111l10M nil nr lh\! offeror, which ~Ilh m i ucd II prnl)U, al would
      recei vc n cun lmCI. Allhu ugh offcrur1> propo)Ocd di ffen!n l Ct)llfi~ur;\l io n !oJ t)f MR /\P!'\,
      :llI llflll )(l,a b. had 10 IlIC("1 Ihe 1<oa ml' !'\ llCcifi{'d lk'rrOrmllll"'C rccr ll i re l1lC n l~ , Nci lhcr
      ~ l:Iltlic nur rcgulli linn 1<olales Ih;11 ildcqua lc price ('" umpclilinn exi:.I)ro onI)' if Ihere is
      more limn Oil\: offeror fur Ille CS:W I sallle prod uct (If 1<ocrvil'c, InstclId, the I~A n
      l'eCJuirc1- Ih;ll lhcrc IIlLISI he IW(I fir more rC' IX'H1Sihlc Ilffcrnrl'-'. cOlllpcling i ndcpc mll!1l11 '1 '
      whk h l'o u h ln ill'ri ~ l' d I.lfl'cr1<o Ihal s:lI i,(y IlIl' OO\'l'fl mtl'ul'!'\ c\ prc 1<o ~t'd rcq uirelllcnts,
      Thai i.. whut oCl.'mn:d in III is instance. [n mldi lhm, Ihe FAR 1\!(ltli rcs Ihnt prkc he II
      , uhl'-'lUlll htl rnclllr ill lilc 1>ourcc sclcctioll, While pike w:" 11I111he !!IU1<o1i1l1purl:u1l
      rlll'lOr in Ihi . . ill,' tll lll'C. il wns il rOl<.: llIr in the sol icil:l tiult , ami wa ~ rc"it.'w('r1 hy Ihe
      MA I~CO R S Y SCOr\'1 Clllllmciing a nie,,'!'.




                                                                                           61 

         The DON f~t'()g n i / es thai Ihe IJtll) IG pnw idcs It much nceded lIcfvk c IU the
0 00 Ullll lhat diffcfcncc!J, or opi ni un ()\'\.'f the i llt(.'q)fctali oll of the FJ\I ~ Ufe p:lfl of the
pn)(.·c~" i n :u,'ctl l11p l b hing Ihese types ( )r audib . I vcry l1Iuch ill'prcci :HI! )'u ur
w ill in£ ll c~" 1(1 :lllow DON lu ctJ lllIllcnl un y OUf repo rt.




A llaf.: hl lll.'IIIS:
A... "Iall•.'d




                                                                                                              b(6)
                                                                    62
Marine Corps Comments 





                                              UNITED STATES MARINE CORPS
                                                MARM c;o~PlIIYITUI COIIMAHD
                                                    2200U:IT£ASTRfI!T
                                                 QUANTICO, IOOQlHlA 221)4.60 10

                                                                                           I1CSC!LJ\l-l
                                                                                           6 I/ov OB

         From :      Commandor , Mar.i nc Co rps Systems Comma nd
         To:         Office of the Deputy I nspector Gcnocal Cor Au diti.ng ,
                     Department of Defense Inspector Genet:a!, 400 J\cl'l.y Il avy
                     Dr i ve (Room 80 1) Ar l ington, VA 22202-~7 01

         Subj:       COI<1M~; N'J'S   ON 000    Ie   DRAM' AUDTT Rc;l.'ORl' fOR THE PROCUREI1 E: NT
                     AND UELIVE:RY Of' JOI NT SERVICE ARMOR PROTECTED VEHICLES

         Rof :       (a) 	 DOQIG Oratt Aud i t Roport Project No. D2007 -DOOOCK­
                           0230
         1.      \oJo have    rov l o w ~ d   r efecencc (""       a nd agreo with t h e majority
         of the report ' , findings and l'ccottlfrl(mdations .                    We appreciate tho
         000 IG's findi ng that "MRAP otclc!als look e ( (octivQ actions to
        accelerat.e delivery o f '-tRAP ve hi cles" and with the concl udon
        thDt tho Ma::ine Corps Systems Command (MCSC ! tool: 0.:1 inn ovative
        and appropriate approa ch LO awardlnQ conLraClS LO all
        contr~ctors whose ofters demonstrated Le~ h n ica l capability,
        which enco u raged new vendors i nt o tho market lor ~ 1u\P ve hic l e
        production , The MRAP Program I\cqul s i t.1on .3trategy was vetted at
        mu l tiple levels up lO oIInd incl udi ng t.h@ Oepse:cO@f , Because th e
        rA~ appropri4tely provides fl exibil i Ly in lhc acquisition
        ~pproach , ou r view of the 000 IG conclusions is ba ~cd on the
        context and risk factors rel eva nt in tho vet t ing procoss at t hat
        tirr,& ,

         2, \ole 69r(!C t haI. the DoD Ie; h as accuratoly listad the relevant
         sec tions of th o F'oderal F\c quisition Reg\l la tl on (FAR) on page 19,
        bu t. find our strategy rogarding tho Gdequacy of price
        compoLlllon a l\d fair and re.!soMb l n priclnq I.s also supportdble
        clnd ..,pprop rhtc tor this Program ,      we believe that th e f ull and
        open competit i on cond ucted by l-lese in whi c h ton proposals ....oro
         r \)CQiv~d provided tho cOnl. ,aC LinQ o ffi co r wit h <I (casoMh]o and
        ratio nal b8~is (or conc l uding that a-dequate price competit i on
        existed. \ole do not concur . . . llh the 1)01) J G' 8 st£ltcmont on pago
        25 which ccnclud<Hl that contr<1CLOI'":'I wore not unde r t he normal
        competitivo pricing pres.o; u :"(!S beca- usc contracts wore 8wardod to
        aU conl ractors wit h technicilUy ..H :ceptA bJ ft proposals because
        nO:1O ot the ot((!rors knew pdor to the a nnou ncement of the
        awa..:ds how rr,any conU'aCl!!l would be pWQt'dod ,     FAR 15 .4 0J~
        l (cl (i) (2) provides l hot a dcqu,) tc pri ce CORlp(.1t il lon ma y exlsL




                                                                       63 

 S';bJ :   DoDIG DRA F'r AUDIT IU:SPOfiSE


 wJth evor. B .'Ji ng l e ofCcr when thn o([er was rocoived with the
 Qxpectation ot. compfltitio n and the offeror believed t h at moro
 than one offe r or was      c~pllb ) e   of subm lt.t.i ng II meaningful otter .
 1'hc con lJ:ilcUng oUice! pubHshcd r~sponses LO numerous offetor
 quC'stio!ls in FEOB T?OPPS pdor to t he closi nq date for Slo!bm l ss JOII
 of propos.,ls. All inte res tod parties could t.oll. that l. ho rG were
 n Ur",a [ o u~ p t'O!lpoc tive o ff ecors ac tive l y e ngaged a nd li ke l y La
 IHlbmil cornpc l.lliv c p ropo!la l !J . Since tha na t ur e of t h is
 disnQr:eement turns upon t ho l egal interpretation of Oldc.qua L
 P i icc compcL.Lt.lon jn lhh c a rll ex l , we wou ld oncourage the input
 or Lhe DQP6n.~cn l o f I)cfense Ge neral Counse l' 3 office on this
matter.
  3. tlotwiLhs ca nding our dl fferin9 vicw reg.u-d ing t he adequac y of
 price cornpet iLi on , we understand and t.o an ext.o nt a9 r ee with I.h"
  [)OD l G' s po in:s r:ego\!lrding lhe pl'ice e va l uat i o n cond uct.ed (or
  th h p roc u rclI1/:nt . \~ e oc~nowle d ge tho[1l. the usc o f prior so l e
 sourco Pd c Jn 9 £loom t he JERRV procurement could nOl properly be
 conUdcred .'In indopendent governmcnl. COSl est ima ~c .              This
 i nfo r mation :s h ou ld have bee n more a ppro pri ate ly cO:lSidered as
 pJ. ~viuullly proposed pri ces tOt simil tu i tems uIHJ ~r fAR 15. ·.04 ­
 1(0) (2) liil. tlonet r.e! es" , despl te t he dl fferinq p rices from the
 vari ou" o f feror" , we are confid ent that tho competitive
 ple 5!'1U r eS of the ma r ke t place pro vided th e Gove rnmen t with
 reas onable pr iCi ng . We nole t hat page 4 o( r ete rence (a)
 incorrectl y lis t s the pLice of the in i t ial 36 test vehicles a!<
s8a..:; t he correC l price ror theac ve hi clc:J W6:J ilct.uollly $23"' .
'I he j nJ t.ilI l competit ivo m5rkeL placo as well as tho continu inl~
c:ompc Li tion (rom lhe mu lti-o"Iwa l'd st.rat.eqy has il U o we d the
Government to obt.a in these hig hly ca pao le ve hi c l es oIIt rca sonao l @'
price". 'l'he Chil l-l on page 34 of. J:e fe r e nce (a ) which depicu t he
pricing foe t h e (ive Dc::.ivc vendoe!.! o f MRAI' v oh ic)c ~ hig hlig h ts
the ra th er narrow ra nge of prices that r esu l ted tor the se
compe t itivel >' lI \oo'l'Irded COntracts. The a verage unit. pdcos (o r
lhe I~RAP vehicles ore si9 n l fi coII n tl y less than t.ha prices tor l he
recentl y Awarded A:-my Medium Min e Pro Lection Vohic l o whic h is
baud on tho BAg RG-33 and tho Tox t con MII11 Armored Security
V.hicies.

4. \-10 IJl\dCt:ltillld the findi ng t hnt ~HI99~!Sted obla i.nlng cost or
pric i ng data pur sua nt to tho 'f l·ut.h jn Ncgo ti a Uon s Act (10 USC
2306&). Thi s .finding b ranches off of the Inore f'und C:lmCtnloal
findi ng regarding the adequlIcy o f price compe tition.
Acco r dingly , because we believe there WiHl adequa te pri ce
co:r.peclcion, we believe it was no t "'ppropriAte unde t th e
specific contex,: of the the n MMP Pr09ram. Th.is ~ l atute and its
imp leme nL 1n9 regulation (FI\R 15. '1 03- 1) does no l a llow the


                                            2




                                                    64 

 contracting office r            t~   request cost       0 '"   pricing data (rom
 c::onLtl'lctors when there is adequate price competition.                             \'lit.h t.ht<
 conL r.J cUng oH i eclI" s do Lcrm ,i na t. ton t h .. , l.Il Q ,.cenipl oC
 competi tive proposals trom Len oCCcror!J constituted adequate
 price co:npet.itio:1 . the Gove L/lment was prohibitf:!d !rom rcqu tdng
 of~erot:.$    La !lubm lt: cost or pricing            d ~la ,       ~:~o n   jf Lhoro had not
 been adequa':c pri.cc compol.:ition . a second Cy'c~p lt o n \'0 t. he Truth
 in Ucgoliations Act WilS applicable fO l all com:nerci.,l Jtel:\s in
 the vehic l es.          Th is wo u ld hnvc appl i eD to many of tho I1 Ri\?
 s ubcon tractors who were $upplying items s uch AS                           axle~.   mo~ors.
 tL<tt1 ::1ml~s ion 5 .   brakes , cloo r s ,   wlnd ~h l old.'J ,    OLe.     Th e cOl\tHlctiuQ
 orUce.: ....ould not be authorized to t'GC! uire cost of I>ricl.ng f ro!!
 Any of the !lUbContL' l!.ctocs who provided commC l'cial ite:ns to tht!l
 f<1RA P contract ors ,

 5,     \~o "'greG with the DoD IG t hat the con tract ing off1c(lt mJ.5t.
 u se the (actors listed at FAR 16, 1 0 <1 to determine the
appropriate contc.!oct type , 'I'he 000 IG concluded t hat thl!! !-lCSC
contract1.ng o !fl ce!.' c hose a i' inappropr1atp. ('ontr/\ ct type for t...ho
",mAP procuremc IH. . I'iC be l ieve OUr ve tt ed approach was
appropriate,        We believo thal t he conlnc ting oUicer !'easonab ly
det~Hmined thrtt a fixod-p"icc contract ,.,as appropL'JAte ( o r the
I'lRAP procurement.      rAR 16.l04(al prov ides that norl1\ally
c ffcCl !v6 pr ice comp etitio n resu l ts in realiBtic prlcinq , and a
fixed-price cont rn ct is ordillllrlly in th~ Governml'nl'~ i ntcref{!.
f u r t he r, had tho cont r acting o ff icer pursued a cost-type
C'onlJ."act , fAR 16 . 104 (11) woul.d have required the c":1tr.!oc t in9
o f flcel to ensure t h at the contractor ' s 8ccounting !SyS l om wouJd
perini t time l y d8velopm e nt of ~ll nece.ssu'y co~t data in t he for m
requirl!!d by t he p ro posed cont ra ct lype . As t h o 000 IG correctly
no ted on page 24 of reference (ai, force Protect i on Ind'Jstrie5,
Inc. (FPII ) does not have an approved acco u nt~n9 system,
Interna ti onal Hilltary a nd Government , LLC (IMG ) likew ise did
not h~vo an accounti ng !ly~tem in p l .aca ....'hieh would allo..... it to
produce t he requirnri cos t d llla Cor ol. ho r t. han a tirm-t'ixed-pLicc
contract. This would have had tho eflect of l lmitin9
compet i l.lf;'!n .

G.     We l; ndccst.lIn(i lha DoD 1G':J fJ. lldJng that... the Gover nme n t
!ihou l d have ~ou9ht c umulative price discou nt!'!' from FPIl. lie
ac '-:now t odgo chut 1 f fPll would have been wUling t. o p :ovitio
cumula t ivE! pr l co ditlcounls lICt:OSs C8l0901 105 like BI\E and
Cutllula clve pr l ee dJSCO IJllLS across d l ivery orders li kf:l n:c thal
t he ce may h<llle been .... :'1 estjm~ced saving" of appr oximat.el y
$·15 . 6H , \~ h ile reco9nizinq t hat i t may hllve beell Inore
apr r opr i ato 1.0 exo r cise lho op l .l ons and t hOIl il l.l. l!lnp l to
negoti ... tl!! l o'",(:r unjl pri(;C5, the HCSC cOIlt...r~ctin9 oC Cicl!!r Wb~


                                                 )




                                                           65 

 :iu bj:       DoOlG ORl\fT lIUtlJT   R~SPONSF;



 ltblo La ubl£jin u savings of "boul S l 7.1N hy QnLccinq lnlo
 bi l ateral modificClllons w~ich allowed the Government to pl.'ocute
 addJtlona l ent.gory 1 vehicles at. lower           b~30   year unit prices.
 To rQmuin ",,!thi n tho scopo of t ho MRJ\P contracts, t he XCSC
 CO:ltl'aCI.i.:l9 oCficer rr,onitored (Ill d~li v ery order~ to ensure        th~t
 OHJ~rs to a ny single HRAI' ctm l taclor did not:. exceed 'J. 500
 Ca t egory I veh i cles or 13 , 000 Ca l egolY II ve hicles.

 'I. He aQLoe wjl.h Lhe Lallowing recolMlendatio ns and have
 provided them ..:ith10 the con li nujng vetting IH'OCCSS of f ollow on
I<lRAP (i Lo9r:am actions . fiany of' t he DOD JG l'cco:t.mendalion."
 Inc l udinlj l~li$onable eo~t lind pricing delcr'tl lnllli on , lIro
pArtially or fully incorpori"lted in some of f-t MP Progra:r. ongoing
actions . or note . we arC! insLlluLinq a Lwo-sLep p1:ocess (OL LhC!
next IIRA I' (All T@rrllln) procuremenl; flurchll~ln9 l imited ~!IV\P
vehieles from 0 (ull ')nd open competition f or test.ing arod U51n9
the l·ecom.1\ended cxt.ensivc cost. and pdc1n~ proce~s in :h!PPOrt. ot
Lhe fu rther selection process. AG we sta~ed eorJ ier regarding
our dhaq[,8ems nt with the 000 1G (inding r egu' ding pdcQ
l·ellsonablonc.$.!;, wo W'ould e ncourllq e the DOD I G to seek the l egal
opinion of the ~epartment of Defense General Coun9cl .

          RQI.!OlTlmendat i on ] - We agroo lhlll future procurements o~
        £1 .
~m.Ap  vehicles should be pl'operly comJ)<!led or justified on a ,ole:
sou rce basis. Wo hove a l ready incoJ:porated lhis recommendatJ.or.
into our Acquisition strate;ies for thv competi tive award o~
MRAP :1 a nd the solo sourco award of MRAP Cate90ry 111 ve h ic l e$ .
rOt t-1RAP (All Terrain) we wi ll flrsl conduct c') Cull and open
competition to buy a "mall number of test nrlicle!l (rom several
primes. A second down~elect compe ti tion will be conducted
following tes:.ing fo r p r oduction vehicles . PdCC5 (or Qac~ part.
of t he competitio n ""j ll be nC9ot.llllCd sepArate ly.

        b.   HCCO~J'I1cndalion 2 - ~Ie agree wi th the importan ce of
ma~t n Q    prIce roasonolb l cncss dotcrminations in acco:dance with
 FAR Part: 15.       The Assi$tant ComMander for Con tra cts h ~s alrcZldy
 rc i tortlted t he importance of Lha issue 1.0 tho Cont ract!!
Oirect.or"LO 1.11[(.IU911 o ffi c i al s t ar! COllVl\uniCllt i ons channels . f'oc
:-:RAP (1111 TOrrnin) we will comple t e" thorough , tair 'l.I1d
 rantlonoble price delermi.natlon. A1. 1I minlmu:t1 , wo will usa lho
cOl1lpollLlvcly {Iw a~ded ~I~PV II IHI w)l.1l wn l narnnd (rom MR1\P ,).Ii we
a·.. . arded modi Cl caL i ons.
        c. Reco/t\flle ndation 3 - He aqrOQ lho3l contnct. l ng offica r !!
m~5t    seleCl con:ract types based on rl!ks ~5sociAted wi th
                              The Assistant COl'Vnander for Cont l ~(.·ltl
(llOCULemenl l cqu 1 1 e:llsnts.
has Alr eAdy rcit.er{lted the importAnce of this iS9ue to the


                                            4




                                                  66 

 !;lIhJ :   O(.'D JC ORA IT AUDI T RESPOIlSE


 Con I t'lIet!) Directorato Ul rol.lgh ofCicia l sLa ( f commu:1 J catio:1~
 chan n eh.     Additiona ll y. we have ;;15k-eel         Oe!en~e    AcquJsl.U O:l
 Ulll vO I sHy (DAU)    Lo prept;trc a snn i o r- lovel Cclse study of tho
 ~~ RAP acqu isition progum to diseuss li lly alter n,.,tiv e~ to the
 c:ontract.!.nq ~trau9Y we selecled. Fo r I'IMP (All TI:'UlI inl \o'e
 w111 con:,;ld c r con trac t types other tha n FiuI' flxed Price fOI
 l est artic les, but d esire to use I irm t hed pri co con l r dCL5 f ur
 pl'odll cL1o:l ve~l !clcs .

        d. Reconvncmdation <I      M   \'l e ag r ee wllh the need t o det.el'mJ no 

 tho cc;:wOD.l bl(!nos.s oC    cOl1t ra cl~ r'    pr.lces .    Contro1lct in g of Urers 

 wUI tol l ow the FAR in determining p rice rcasonobl eness and will
obta in cost. or pricing data as aulhorized by st.lIlule . The
TI~sI:'\lont Com:'1l:1no cr ror Contnct~ h& 3 a J ready l'eicera t ed t he
 ImportAnce of this issue to t h e Con tracts Directora t e th ~o u gh
o ff icia l stAfl cOltununica tions c h an n els, Wa arc CU ll on t ly 

b~d I dlno the f ramewo r k for the prlco reIJsonliblenes.!i 

dOLorr.-i n.ltion lh a t. will be used r or !1 R.A? (Al l Terrain). I-if' 

IJ e l co::;c t. he oppo rt u niLy to s hare the framc"" o rl: with DoOIG lind 

:lee l: t h e t r ccrrunents, 


          o . RecomMr.-ndat!on 5 - We agree t h at pri ce ni\ll'll be or:o o!
the (acto:.s con!ddered i n makl nQ a best value determination, Tho
I' ss i l'lla nt Convnander (oz- Cont rac t s hA S already re it e:ated -: h e
importa nce o f th l!! iss ue to t he Contracts Di.rectora t e t hrou9h
off!'chl stllrr cOm::'.un i. et'lt.ions c hllnneh ar.d I-Icse will conduct
co:npc llt.i ve sOU!'CQ :lchc.: t ions In aeco r dar.ce with t.he ~1\::t. As we
plan r or. ,·IRA P (1\11 Terrai n ) , we "" i ll apptopdately weight price
a nd su r vivab i lity , mob i l it y, man~ lI vcrab i 1 Hy, l>rodlicib U i ty .. nd
ot her fo!I e l (') I'S with in t ho con te x t of the urgenl need.

            (. Recommenda ti on 6 - We ag r'CC lhat approp :-Hlt e acUon
:'I h('lu l d be ta ~:e n \Jhen proc uring qUlIntilles Lh at exceed the
max imu:"l quontlty specified in t he con trac t. Tho AS:list..al lt
CommlJnder ( or Co n tr.,et~ has ,)1 ready r ei ter ated the irrpor t ar.cc oe
Lh 1s issue LO t. he Con tracLS Oi.rcc lorate t h rouqh o!!icla. l sta ft'
commu n i.cillioll S c hannuls . f or HRAP \All Te rrain) . we wHl
lalle:npt to bu ild suff1clf'Jnt fle:-cibilily inlO t ho productio:1
cont 1 acl LO deal wi I. h both p lanned o!\nd pot.enl I a 1 q lJl1 nt i t 1~s ,

        9, Re("orrvnendalion " - We o'Igl'oe with t he recct\\tllendation,
'j'h I\ uis l ll nl (;ommllndor fOI Contluct8 ho'ls o'Ilul'ady dl,UCU :;I tilf:d Lilt!
Janport",nc" o [ lil is t'ecotnlncnd C\l l on wit h the Con I !'aC LS
O.ire c Lorate , He w i ll e n ~ ur e th,, ' pLocedllre:l are est abl ished to
Inco::poUlC seeking cumu lat i ve qur.n t il y discounts {lcros:]
delivf" r y OrdC!5 reqardleslS of vehicle vlIrlant.s. As Pdl L or th~



                                             .<




                                                        67 

Subj:           Do Ol(; DRAfT AUDIT RESpmISE:


!-:RAP (A ll Te r rainl Requ est rO t' Proposals (fU' P)          ~'C   will see,: b ot h
See l) and cumu lative qU£I!\liLy dhcount.:J .

          h. Roco:tlll\cndlltion 8 ~ Wo agree wi t h t.he rcco:nmcndaUo n. 

"he     ~nl\ Pco nl. cac'p llltJ of fl cor has contacted fP[t regolrd1 nq t h is 

!nCl t t.e r. 


      j . Rocommendation 9 - \'I e ag :-ee -..ti t h t ho recommendation.
:hc I1RM' contr ll c LJn g off i cer ha s co nta c ted H!G rega rding t ld u
!":',a llcr .

a,     '/l'e    "p pr cc i a~c   t he efiotts of th e Do D I G rmol t Team 1:1
cond ucti ng thi s proc urement. I"c vtow ilnd we wi l l addtes:;! lh(.!!lc
recommendations in a timely mann e r .




                                             11~
                                              Comma nder
                                              Had no Corp:; SYS l ems Comm" nd

Copy LO:
AS Il (ROM
eKe (?'R)
NCSC (DfMI




                                                6




                                                        68 

Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                          O FFIC E O F TH E UNDER SI!CRETARY O F DEFENSE
                                          ~ooo DI!:I"EN II!: "I!HTAGON
                                         W.... HINGTON, DC 2 0301-3000



                                                                                       DEC 1 2   ro:.e
     ACQU ltiTION 

     TlCHNOLOGY 

    ANI) LOOI.TIC.

        MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL, ACQUISITION
                         AND CONTRACT MANAGEMENT


        SUBJECT: DODIG Audit of the Procurement and Delivery of Joint Service Annor
                      Protected Vehiclcs (Project No. D2007· J)OOOCK·0230)

                Your memorandum of2 1 November 2008 requested my review or your finding
        that concluded lhe "Marine Corps Systems Command officials did not properly
        determine that contract prices were fair and reasonable when Ihey awarded nine finn­
        fixed price IDIQ conlracts in JAnunry 2007 for various MRAr vchicles." I concur with
        your view.

                Specifically, YOLI nsked the following questi ons:

                1) 	 When Requiring items thot arc di ssimilar Dnd no commercial market place
                     exists) mily a contracting officer assume that price competition and n fair and
                     reasonable price arc uchievcd where multiple offers ure received?

                2) What steps orc required to ensure a fnir and reasonable price in such coses?

                With regard to the questions asked , the dclenninaliol1 of whether prices life fair
        nod reasonable is a mnller of contracting ollicer judgment based upon the nnnlysis oflhe
        proposals submitted. It is possible that a contracting orncer could find the pricing
        received on multiple otTers against a common rcquiremcntlbr di ssimilar, non commercial
        items to be in fact, fair Ilnd reasonable. In (his case, however, it is not clear from lhe
        record as described in your report th althe Contracting Omcer took the actions necessary
        to ensure that fnir nnd reasorl"blc prices were paid. It is not sumcient to simply nssume
        that fnir and reasonable prices were paid becuuse multiple finn fixed price offers were
        received.

                The MRAP source selection was conducted on a b e.~ t value basis. f' AR 15. 101 .. 1
        requ ires that the contracting officcr conduct a costlrechni call rade-ofT analysis to
        detcrmine the best Vtl luc oITer(s), It does not appear Ihftt the trade betwecn price nnd non­
        price factors was conducted or, if conducted. was property documented,




                                                                     69 

       Iflhc required Irndc-offproccss hod been conducled Ihere should hove bcen nn
Indication amongst the otTers wilh regard to whether lhe price paid was reasonable in
comparison to the benefit gni m.'.<1 from Ihe evaluated non-price factors. The offers shou ld
hnve been evaluated ugainsllhe non·prlce technical fllttors und arrayed from best to
worst. With this infonnation and the evaluated prices, the contracting offictr could have
dctcmlincd the best value offer Bnd could have presumed that the price was fair
rcasonnble In relationship 10 the other ofTers submilled.

        11 is possible that the other otTered prices could' olso be fair and reasonable. As an
example, if the second best offer has 8 lower ofTcrcd price Dnd the difference between the
best ofTer and Ihis ofTer is casily exploincd by Ihe Icsscr cap.bility of the second ofTer,
that price would also be fa ir and reasonable. On Ihe other hand, iflwO offers (lrc
basica lly Ihe same capabil ity, bUI one has a pricc significantly higher Ihan Ute olher, il
would be difficult 10 find the higher priced ofTer fltir Imd reasonable unless there were
other fnelors of importance 10 the contracting officer (delivery schedule might be such a
reuson if it were un evaluated factor). The important point is the contracting officer
cannot j ust ass ume ollthc offered prices arc fair and rcasonable simply because they were
submitted on n finn fixed price basis; add itional ana lysis wou ld be required.

        Absent the justification ofpricc5 paid through the trndc-offprocess, it is my view
Ihat the Contracting Officer would have to ensure through cost aod/or price analysis that
the prices paid were fuir and reasonable. I do not concur with your vi cw that the usc of
fiml fixed price contracts was inappropriate. TIIC usc of tim) fixed price contracts would
be perfectly appropriate ifbuuressed with the appropriate nnnlysis to dctcnnine fair and
reasonable prices.

       1 also concur with your view that reduced prices should have been sought where
the quantities procured ore in excess o(the annual qunntlty contracted. J believe that
additional training IlOd policy guidance will be necessary to address this maHer.




                                                           70 

